  AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE

  COOPERATIVE AGREEMENT AWARDS UNDER THE

 SOLVING COLD CASES WITH DNA PROGRAM TO THE

JACKSON COUNTY, MISSOURI PROSECUTOR’S OFFICE,

            KANSAS CITY, MISSOURI



           U.S. Department of Justice

         Office of the Inspector General

                  Audit Division


          Audit Report GR-60-14-008

                  March 2014



        REDACTED – FOR PUBLIC RELEASE
          AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE

          COOPERATIVE AGREEMENT AWARDS UNDER THE

         SOLVING COLD CASES WITH DNA PROGRAM TO THE

        JACKSON COUNTY, MISSOURI PROSECUTOR’S OFFICE,

                    KANSAS CITY, MISSOURI



                                 EXECUTIVE SUMMARY *


       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of the Solving Cold Cases with DNA program
cooperative agreements totaling $920,353, awarded by the Office of Justice
Programs (OJP), National Institute of Justice (NIJ) to the Jackson County, Missouri
Prosecutor’s Office (Jackson County), as shown in Exhibit 1.

EXHIBIT 1:	 COOPERATIVE AGREEMENTS AWARDED TO THE JACKSON
            COUNTY, MISSOURI PROSECUTOR’S OFFICE
                            COOPERATIVE
                             AGREEMENT          AWARD        PROJECT         PROJECT        AWARD
   AWARD NUMBER               PROGRAM            DATE       START DATE      END DATE        AMOUNT
                        Solving Cold Cases
 2010-DN-BX-K008                               08/24/10      12/01/10       09/30/13        $504,524
                        With DNA
                        Solving Cold Cases
 2012-DN-BX-K031                               08/23/12      10/01/12       10/31/14        $415,829
                        With DNA
                                                                                Total:      $920,353
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)


       The purpose of NIJ’s Solving Cold Cases with DNA Program is to provide
assistance to states and units of local government to identify, review, and
investigate Uniform Crime Reporting (UCR) Part 1 violent crime cold cases that
have the potential to be solved through DNA analysis and to locate and analyze
biological evidence associated with these cases. 1 For the purposes of this program,
the NIJ defines a violent crime cold case as any unsolved UCR Part 1 violent crime
case for which all significant investigative leads have been exhausted.

       The purpose of the audit was to determine whether reimbursements claimed
for costs under the cooperative agreements were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and conditions
of the cooperative agreements, and to determine program performance and

        *
           The Office of the Inspector General redacted Appendix III of this report because it contains
information that may be protected by the Privacy Act of 1974, 5 U.S.C. §552(a) or may implicate the
privacy rights of identified individuals.
        1
          In the Federal Bureau of Investigation’s UCR Program, Part 1 Violent Crime is composed of
four offenses: murder and non-negligent manslaughter, forcible rape, robbery, and aggravated
assault. Violent crimes are defined in the UCR Program as those offenses which involve force or threat
of force.
accomplishments. The objective of our audit was to assess risks and review
performance in the following areas: (1) internal control environment,
(2) drawdowns, (3) expenditures, (4) budget management and control,
(5) financial and progress reports, and (6) program performance and
accomplishments. We determined that monitoring of contractors and subrecipients,
property management, indirect costs, program income, and matching were not
applicable to these awards.

       We tested compliance with what we consider to be the most important
conditions of the cooperative agreements. Unless otherwise stated in our report,
the criteria we audit against are contained in the OJP Financial Guide and the
cooperative agreement award documents.

      We examined Jackson County’s accounting records, financial and progress
reports, and operating policies and procedures and found:

   •	 $504,524 in unallowable costs associated with the review of ineligible cases;

   •	 $415,829 in funds to better use associated with the review of ineligible

      cases;


   •	 performance metrics reported to NIJ were not accurate; and

   •	 Jackson County did not meet its program goals.

      The report contains three recommendations, which are detailed in the
Findings and Recommendations section of the report. Our audit objectives, scope,
and methodology are discussed in Appendix I. Our Schedule of Dollar-Related
Findings appears in Appendix II.




                                          ii
                                        Table of Contents

INTRODUCTION ..........................................................................................1

  Background................................................................................................ 2

  Our Audit Approach ..................................................................................... 2

FINDINGS AND RECOMMENDATIONS ..........................................................4

  Internal Control Environment ....................................................................... 4

    Single Audit............................................................................................. 4

    Financial Management System................................................................... 4

  Drawdowns ................................................................................................ 5

  Expenditures .............................................................................................. 5

    Personnel and Fringe Benefits.................................................................... 5

  Budget Management and Control .................................................................. 8

  Reporting................................................................................................... 9

    Financial Reporting................................................................................... 9

    Categorical Assistance Progress Reports ..................................................... 9

  Program Performance and Accomplishments ................................................ 13

  Conclusion ............................................................................................... 14

  Recommendations..................................................................................... 14

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ..........................16

APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS ...................... 18

APPENDIX III: JACKSON COUNTY, MISSOURI PROSECUTOR’S OFFICE

RESPONSE................................................................................................. 19

APPENDIX IV: OFFICE OF JUSTICE PROGRAMS RESPONSE ...................... 44

APPENDIX V: OFFICE OF INSPECTOR GENERAL ANALYSIS AND SUMMARY 

OF ACTIONS NECESSARY TO CLOSE THE REPORT...................................... 46

         AUDIT OF THE NATIONAL INSTITUTE OF JUSTICE

         COOPERATIVE AGREEMENT AWARDS UNDER THE

        SOLVING COLD CASES WITH DNA PROGRAM TO THE

       JACKSON COUNTY, MISSOURI PROSECUTOR’S OFFICE,

                   KANSAS CITY, MISSOURI


                                      INTRODUCTION


      The U.S. Department of Justice (DOJ), Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Solving Cold Cases with DNA program
cooperative agreements totaling $920,353, awarded by the Office of Justice
Programs (OJP), National Institute of Justice (NIJ) to the Jackson County, Missouri
Prosecutor’s Office (Jackson County), as shown in Exhibit 1.

EXHIBIT 1:	 COOPERATIVE AGREEMENTS AWARDED TO THE JACKSON
            COUNTY, MISSOURI PROSECUTOR’S OFFICE
                           COOPERATIVE
                            AGREEMENT          AWARD        PROJECT        PROJECT        AWARD
   AWARD NUMBER              PROGRAM            DATE       START DATE     END DATE        AMOUNT
                       Solving Cold Cases
 2010-DN-BX-K008                              08/24/10      12/01/10      09/30/13        $504,524
                       With DNA
                       Solving Cold Cases
 2012-DN-BX-K031                              08/23/12      10/01/12      10/31/14        $415,829
                       With DNA
                                                                              Total:     $920,353
Source: Office of Justice Programs’ (OJP) Grants Management System (GMS)


       The purpose of NIJ’s Solving Cold Cases with DNA Program is to provide
assistance to states and units of local government to identify, review, and
investigate Uniform Crime Reporting (UCR) Part 1 violent crime cold cases that
have the potential to be solved through DNA analysis and to locate and analyze
biological evidence associated with these cases. 1 For the purposes of this program,
the NIJ defines a violent crime cold case as any unsolved UCR Part 1 violent crime
case for which all significant investigative leads have been exhausted.

       According to its application, Jackson County intended to use Cooperative
Agreement 2010-DN-BX-K008 to review the county’s remaining large number of
unsolved violent crime cold cases with evidence amenable to DNA testing. This
included conducting complete legal and factual reviews of each case, in order to
determine which cases would be approved for DNA testing. In instances where a
DNA match was obtained, Jackson County intended to provide legal and
investigative assistance to the police prior to the suspect’s arrest. The budget
included full-time salaries and fringe benefits for three cold case analysts, one cold

       1
          In the Federal Bureau of Investigation’s UCR Program, Part 1 Violent Crime is composed of
four offenses: murder and non-negligent manslaughter, forcible rape, robbery, and aggravated
assault. Violent crimes are defined in the UCR Program as those offenses which involve force or threat
of force.




                                                  1

case investigator, and one cold case paralegal. According to its application, Jackson
County intended to use Cooperative Agreement 2012-DN-BX-K031 to continue to
identify, evaluate, and investigate violent crime cold cases in the county. The
intended activities were the same as the 2010 award. The budget included full-time
salaries and fringe benefits for two cold case analysts, one cold case investigator,
and one cold case paralegal, and computer equipment for the staff.

Background

       OJP’s mission is to increase public safety and improve the fair administration
of justice across America through innovative leadership and programs. OJP seeks
to disseminate state-of-the-art knowledge and practices across America and to
provide grants for the implementation of these crime fighting strategies. NIJ, a
program office of OJP, is the research, development, and evaluation agency of DOJ.
The NIJ’s mission is to provide objective and independent knowledge and tools to
reduce crime and promote justice, particularly at the state and local levels. The
NIJ’s Office of Investigative and Forensic Sciences provides direct support to crime
laboratories and law enforcement agencies to improve the quality and practice of
forensic science. The office oversees a number of programs aimed at expanding
the information that can be extracted from forensic evidence, including DNA.

      Jackson County includes 604 square miles and includes a major metropolitan
area, Kansas City, Missouri. The Jackson County Prosecuting Attorney is a county
elected official. The Prosecutor’s Office Cold Case Unit is part of the Jackson
County Prosecuting Attorney’s Office. Jackson County has partnered with the
Kansas City Police Department (Kansas City) and its crime laboratory to investigate
and prosecute cold cases.

Our Audit Approach

       We tested compliance with what we      consider to be the most important
conditions of the cooperative agreements.      Unless otherwise stated in our report,
the criteria we audit against are contained   in the OJP Financial Guide and
cooperative agreement award documents.         We tested Jackson County’s:

   •	 internal control environment to determine whether the internal controls in
      place for the processing and payment of funds were adequate to safeguard
      cooperative agreement funds and ensure compliance with the terms and
      conditions of the cooperative agreements;

   •	 drawdowns to determine whether cooperative agreement drawdowns were
      adequately supported and if Jackson County was managing cooperative
      agreement receipts in accordance with federal requirements;

   •	 expenditures to determine whether the costs charged to the cooperative
      agreements were accurate and allowable;




                                          2

   •	 budget management and control to determine Jackson County’s
      compliance with the costs approved in the cooperative agreement budgets;

   •	 reporting to determine if the required financial and programmatic reports
      were submitted on time and accurately reflected award activities; and

   •	 performance and accomplishments to determine whether Jackson County
      met the cooperative agreement objectives.

      The findings and recommendations are detailed in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology appear in Appendix I. Our Schedule of Dollar-Related Findings
appears in Appendix II.




                                        3

                 FINDINGS AND RECOMMENDATIONS

      We found that Jackson County did not comply with essential award
      conditions in the areas of expenditures, reporting, and performance.
      Specifically, 34 percent of the cases reviewed by Jackson County using
      award funded positions were not eligible under the program; as a
      result, the award expenditures related to these positions totaling
      $504,524 are unallowable. We also have concerns regarding the use
      of funds moving forward; as a result, we identified award funds that
      have not been drawn down totaling $415,829 as funds to better use.
      Further, we found that Jackson County’s program performance data
      reported to the NIJ in the semi-annual progress reports was not
      accurate. Finally, since 34 percent of the cases reviewed under the
      program were ineligible, Jackson County did not meet the program
      goals. Based on our audit results, we make two recommendations to
      address dollar-related findings and one recommendation to improve
      the management of DOJ cooperative agreements.

Internal Control Environment

       We reviewed Jackson County’s Single Audit Report, other prior audits, and
the financial management system to assess the organization’s risk of
non-compliance with laws, regulations, guidelines, and terms and conditions of the
cooperative agreements. We also interviewed management and key personnel, and
inspected documents and records in order to further assess risk.

Single Audit

       The Office of Management and Budget (OMB) Circular A-133 requires that
non-federal entities that expend $500,000 or more per year in federal awards have
a single audit performed annually. The most recent Single Audit for Jackson County
that was available for review was for the year ended December 31, 2011. We
reviewed this audit report and did not identify any findings related to Jackson
County or Cooperative Agreements 2010-DN-BX-K008 and 2012-DN-BX-K031 that
were significant within the context of our audit.

Financial Management System

       We reviewed Jackson County’s financial management system, interviewed
Jackson County officials, and inspected cooperative agreement documents. Internal
control procedures for payroll included tracking employee hours using timesheets
that are approved and signed by a unit supervisor and then entered into an
electronic system. The finance department compiled timesheets to create labor
reports, in order to charge payroll to the designated fund. We did not review
internal control procedures for equipment purchases, because as of the start of our
fieldwork there were no expenditures for Cooperative Agreement
2012-DN-BX-K031, which was the only award that included equipment as part of



                                        4

the budget. We did not identify any control weaknesses within the context of our
audit.

Drawdowns

       Jackson County officials stated that drawdowns were requested on a
reimbursement basis. According to the OJP Financial Guide, the grant recipient
should time drawdown requests to ensure that federal cash on hand is the
minimum needed for disbursements to be made immediately or within 10 days. We
analyzed the cooperative agreement to determine if the total expenditures recorded
in Jackson County’s accounting records were equal to, or in excess of, the
cumulative drawdowns. For Cooperative Agreement 2010-DN-BX-K008, we
determined that Jackson County complied with this requirement, as total
expenditures were greater than cumulative drawdowns as of April 18, 2013, the
most recent drawdown date we reviewed as part of our audit. For Cooperative
Agreement 2012-DN-BX-K031, Jackson County had not expended or drawn down
any funds as of the start of our fieldwork.

Expenditures

       According to Jackson County’s accounting records as of August 2, 2013,
expenditures for Cooperative Agreement 2010-DN-BX-K008 totaled $483,761. We
selected a judgmental sample of 35 transactions totaling $49,232 for review, in
order to determine if cooperative agreement expenditures were allowable,
reasonable, and in compliance with the terms and conditions of the award. For
Cooperative Agreement 2012-DN-BX-K031, Jackson County had not expended any
funds as of the start of our fieldwork.

Personnel and Fringe Benefits

        The sample for Cooperative Agreement 2010-DN-BX-K008 included payroll
transactions from two non-consecutive months. For the two selected months, we
determined that salaries and fringe benefits charged to the cooperative agreement
were computed correctly, properly authorized, and accurately recorded. However,
we found that the activities performed by the award funded employees were not
eligible under the program. As a result, we found that all personnel and fringe
benefits costs charged to the cooperative agreement were unallowable.

        The FY 2010 Solving Cold Cases with DNA program solicitation outlines
allowable and unallowable uses of funds. Permissible uses of the funds included
activities directly related to the three program goals, also known as funding
purposes: cold case review, location of evidence, and DNA analysis of biological
evidence. Funds could also be used for certain investigative activities provided they
directly related to the funding purposes. Costs for general cold case investigations
– those that do not have the potential to be solved through DNA analysis – are not
allowed. Funds are also not to be used for general casework backlog reduction.




                                         5

       According to NIJ officials, the general concept behind the program was to
take advantage of the advent of DNA technology and subsequent advances to solve
cold cases that occurred at a time when the technology was not available or
advanced enough to process the biological evidence. This statement is in line with
the 2010 program solicitation, which stated that advances in DNA technology have
increased the successful analysis of aged, degraded, limited, or otherwise
compromised biological evidence. Biological samples once thought to be unsuitable
for testing or that generated inconclusive results may now be analyzed. These
statements point to the fact that the funds are meant for cases where limits in DNA
technology at the time the crime was committed prevented the investigation from
moving forward.

       NIJ officials also stated that the program was not meant to cover cases with
biological evidence that was obtained during a time when the DNA technology was
available but a decision was made by the agency to inactivate the case without
processing the biological evidence. This corresponds to NIJ’s definition of a cold
case; that is any unsolved case for which all significant investigative leads have
been exhausted. If suitable DNA technology was available at the time the crime
was committed and biological evidence was collected, the biological evidence
represents a significant investigative lead. If the biological evidence was not
analyzed, all investigative leads have not been exhausted and the case does not
qualify under this program. This stipulation underscores the fact that the review
and investigation of certain cases cannot be funded using program funds.

       We found that Jackson County was using award funds to review relatively
recent sex crime cases, for which biological evidence had been collected during a
time when DNA technology was readily available, including crimes committed
between 2006 through 2011. Of the 1,233 cases that Jackson County reviewed
under the program as of the end of July 2013, 424, or 34 percent, of the cases
were from crimes committed between 2006 and 2011. In our opinion, cases from
more recent years are not eligible for inclusion in the program, because DNA
technologies were not a limiting factor for processing biological evidence during the
investigation, since they occurred at a time when the technology was readily
available.

        We looked at a sample of eight case files from 2008, 2009, and 2010, which
were reviewed by award funded employees. The sample revealed that not only
were the crimes committed during a time when DNA technology was readily
available, the cases either did not meet NIJ’s definition of a cold case because all
significant investigative leads related to the biological evidence had not been
exhausted or a DNA profile had already been developed. Specifically, we found
that: (1) for four of the cases, the biological evidence – a rape kit – was collected
at the time the crime was committed and Kansas City, the partnering agency, chose
not to develop DNA profiles related to the evidence before inactivating the case; as
a result, the agency did not fully pursue all investigative leads related to the
biological evidence; and (2) for four of the cases, the biological evidence had
already been processed and uploaded to the Combined DNA Index System (CODIS)
as part of the original investigation, which was prior to the case being reviewed as


                                          6

part of this award. These cases are problematic because according to the FY 2010
program solicitation: (1) this funding is to be used to review cases for which all
significant investigative leads have been exhausted, and (2) activities under this
program are only permissible until all samples with potential DNA evidence have
been recovered and analyzed.

        We also noted that according to Jackson County’s FY 2010 award application,
its primary goal was to review 1,748 cold cases for crimes committed between
1972 and 2005 that were known to have biological evidence amenable to DNA
testing. According to the OJP Financial Guide, you must initiate a Grant Adjustment
Notice (GAN) for changes in scope, duration, activities, or other significant areas.
These changes include altering programmatic activities or changing the purpose of
the project. Jackson County did not file a GAN outlining the changes in scope.
Therefore, in addition to reviewing cases that were not eligible under NIJ’s
program, Jackson County’s review of cases from 2006 through 2011 was also
inconsistent with the primary goal stated in its application. We used the original
timeframe established by Jackson County – 1972 through 2005 – to differentiate
cold cases that were eligible to be reviewed and more recent cases that were not
eligible.

        Jackson County also received Solving Cold Cases with DNA program funds in
FY 2008. According to Jackson County’s FY 2010 application, the funds from the
2008 award were used to conduct legal and factual reviews of approximately
1,000 investigative files with testable evidence for the years 1979 through 1990.
The application proposed looking at 1,748 cases from 1981 through 2005 that still
needed to be reviewed. However, we found that one-third of the cases actually
reviewed were from 2006 through 2011. We asked Jackson County officials why
these cases were reviewed, despite the existence of cases from the earlier period
that had not been reviewed. Jackson County officials stated that Kansas City, the
partnering agency, expanded the cases reviewed to include more recent years
(i.e., 2006 through 2011). Kansas City and Jackson County received separate
Solving Cold Cases with DNA awards to conduct “dual reviews” of unsolved sex
crimes cases. The general approach was described by both agencies as follows:
(1) Kansas City’s Sex Crimes Cold Case Squad conducted an investigative review of
the case file to make an initial determination regarding whether the case should be
pursued and (2) the case was then forwarded to Jackson County for a legal and
factual review to determine if the case had prosecution potential and should be
approved for DNA testing. Jackson County officials stated that Kansas City was
responsible for determining which cases qualified as cold cases. When Kansas City
opted to review cases from more recent years, it resulted in Jackson County also
reviewing the cases from more recent years.

       In addition to being the secondary reviewer, Jackson County officials
provided additional reasons why they used program funds to review more recent
cases. Jackson County officials stated that: (1) the definition of what constitutes a
cold case – that is, exhausting all investigative leads, which includes analyzing
biological evidence when suitable DNA technology exists at the time the crime
occurred – is “cryptic,” as the language related to biological evidence was not


                                          7

explicitly included in the program solicitations or other program documentation;
and (2) the FY 2010 application included language that allowed Jackson County to
identify and complete work outside of the 1972 through 2005 timeframe. Jackson
County officials felt that they were abiding by the requirements of the award as set
forth in the solicitation in good faith.

       While we acknowledge that NIJ’s definition of a cold case does not refer
specifically to biological evidence, the definition can be reasonably inferred, based
on the solicitation as a whole. As far as Jackson County’s assertion that its
application provides flexibility regarding the timeframe, the stated goal in the
application was to address cases from 1972 through 2005.

       We are questioning all costs charged to the cooperative agreement, all of
which was for personnel costs, because a significant number of the cases reviewed
by the award-funded employees were not eligible under the program. Further,
Jackson County officials stated that they did not have a formal system to track the
number of hours award-funded employees spent on each case, which would allow
us to determine the percentage of time award-funded employees spent on eligible
cases. Subsequent to our fieldwork, Jackson County had drawn down all award
funds for Cooperative Agreement 2010-DN-BX-K008; therefore, we are questioning
the entire award totaling $504,524 as unallowable.

       Additionally, we have concerns regarding the use of Cooperative Agreement
2012-DN-BX-K031 funds totaling $415,829, none of which were spent as of the
conclusion of our audit. The FY 2012 award application expanded the case
timeframe that would be subject to review, including 2,545 cases with evidence
amenable to DNA testing from years 1979 through 2010. Despite the fact that
Jackson County included more recent case years for review and investigation, the
concerns we have regarding the eligibility of the more recent cases still exist.
Jackson County’s case load, at least in part, mirrors Kansas’s City’s case load,
because of the dual review process. 2 Therefore, it is likely that the ineligible cases
reviewed by Kansas City using FY 2011 award funds, which was 95 percent of what
was reviewed, are in large part the same cases that will be reviewed by Jackson
County using its FY 2012 award funds. Therefore, we identified the entire award
totaling $415,829 as funds to better use.

Budget Management and Control

       The NIJ approved a detailed budget for the cooperative agreements, which
were organized by defined budget categories. According to the OJP Financial Guide,
the cooperative agreement recipient must initiate a GAN for a budget modification
that reallocates funds among budget categories, if the proposed cumulative change
is greater than 10 percent of the total award amount. We compared cooperative
agreement expenditures to the approved budgets to determine whether Jackson

        2
          According to the FY 2012 award application, Jackson County includes 18 law enforcement
agencies in addition to Kansas City. A smaller number of cases reviewed under this program were to
be pulled from these smaller, more rural agencies.


                                                 8

County transferred funds among direct cost categories in excess of 10 percent. For
Cooperative Agreement 2010-DN-BX-K008, we determined that Jackson County
complied with the requirement, as the cumulative difference between actual
category expenditures and approved budget category totals was not greater than
10 percent. For Cooperative Agreement 2012-DN-BX-K031, Jackson County had
not expended any funds as of the start of our fieldwork.

Reporting

      We reviewed the Federal Financial Reports (FFR) and Categorical Assistance
Progress Reports (progress reports) to determine if the required reports were
submitted on time and accurate.

Financial Reporting

       The OJP Financial Guide states that grant recipients must report expenditures
online using the FFR no later than 30 days after the end of each calendar quarter.
For Cooperative Agreement 2010-DN-BX-K008, we reviewed the submission dates
for the four most recent FFRs as of the start of our fieldwork and determined that
all four were submitted on time. For Cooperative Agreement 2012-DN-BX-K031,
we reviewed the submission dates for the three FFRs submitted for this award as of
the start of our fieldwork and determined that all three were submitted on time.

       We also reviewed financial reporting for accuracy. According to the OJP
Financial Guide, recipients shall report the actual expenditures and unliquidated
obligations incurred for the reporting period on each financial report. For
Cooperative Agreement 2010-DN-BX-K008, we compared the four FFRs to Jackson
County’s accounting records and determined that the reports were accurate.
However, delays in posting correcting journal entries to the award fund resulted in
temporary differences between what was included in Jackson County’s accounting
records and the reports. We confirmed that correcting entries were subsequently
posted to the award fund and the totals matched what was reported in the FFRs.
For Cooperative Agreement 2012-DN-BX-K031, Jackson County had not expended
any funds as of the start of our fieldwork. The three FFRs reported $0 in
expenditures and unliquidated obligations, meaning the reports were accurate.

Categorical Assistance Progress Reports

       According to the OJP Financial Guide, progress reports are due semi-annually
on January 30th and July 30th for the life of the award. For Cooperative Agreement
2010-DN-BX-K008, we reviewed the submission dates for the six progress reports
submitted as of the start of our fieldwork and determined the first three reports
were late. For Cooperative Agreement 2012-DN-BX-K031, we reviewed the
submission dates for the two progress reports submitted for this award as of the
start of our fieldwork and determined that the first report was late, as shown in
Exhibit 2.




                                          9

EXHIBIT 2: PROGRESS REPORT HISTORY

   REPORT            REPORT PERIOD
   NUMBER           FROM - TO DATES              DUE DATE          DATE SUBMITTED        DAYS LATE
 COOPERATIVE AGREEMENT 2010-DN-BX-K008
     1         12/01/2010 - 12/31/2010          01/30/2011           02/01/2012                   367
     2         01/01/2011 - 06/30/2011          07/30/2011           02/01/2012                   186
     3         07/01/2011 - 12/31/2011          01/30/2012           02/01/2012                      2
 COOPERATIVE AGREEMENT 2012-DN-BX-K031
     1         10/01/2012 - 12/31/2012          01/30/2013           03/01/2013                    30
Source: OJP’s GMS

        Jackson County officials attributed the late reports to a misunderstanding
regarding the reporting requirements. There was no activity on either award during
the early reporting periods and Jackson County did not know that award recipients
were required to submit reports regardless of whether or not there was any
activity. Jackson County submitted all subsequent reports for both cooperative
agreements on time. For Cooperative Agreement 2010-DN-BX-K008, we also
reviewed a GAN explaining that an incorrect start date was entered into GMS by
OJP, which prevented Jackson County from being able to submit reports prior to the
fix in September 2011. In our opinion, Jackson County now understands the
requirement and addressed the issue; therefore, we offer no recommendation
related to this issue.

        We also reviewed the progress reports for accuracy. According to the OJP
Financial Guide, the funding recipient agrees to collect data appropriate for
facilitating reporting requirements established by Public Law 103-62 for the
Government Performance and Results Act. The funding recipient should ensure
that valid and auditable source documentation is available to support all data
collected for each performance measure specified in the program solicitation. For
Cooperative Agreement 2010-DN-BX-K008, we selected two recent progress
reports for our audit review. These reports covered the reporting periods from
January 2012 through June 2012 and July 2012 through December 2012. For
Cooperative Agreement 2012-DN-BX-K031, the two progress reports indicated
there was no activity under this award as of the start of our fieldwork.

       The NIJ’s Solving Cold Cases with DNA Progress Report Form includes a
performance measure table, which captures six performance metrics for each
reporting period over the course of the cooperative agreement. Performance
metrics include: (1) number of violent crime cold cases reviewed, (2) number of
violent crime cold cases reviewed in which biological evidence still existed,
(3) number of violent crime cold cases with biological evidence that are subjected
to DNA analysis, (4) number of violent crime cold cases that yielded a viable DNA
profile, (5) number of DNA profiles entered into the Federal Bureau of
Investigation’s CODIS, and (6) number of CODIS hits. 3

       3
          Matches within the CODIS database are identified as “hits.” A “hit” is when one or more
DNA profiles from a crime scene are linked to a convicted offender (offender hit) or to evidence from
another crime scene (forensic hit).


                                                  10

       Jackson County officials informed us that the cold case paralegal funded
under the cooperative agreement tracked performance using a database that
included all cases reviewed as part of the program. At the end of each semi-annual
reporting period, the period data was compiled and reported to the NIJ. Jackson
County provided us with a copy of the database during our fieldwork, which
included activity through the end of July 2013. Based on our review, we
determined that the performance data reported to the NIJ did not match the
supporting documentation maintained by Jackson County, as shown in Exhibit 3.

EXHIBIT 3: COOPERATIVE AGREEMENT 2010-DN-BX-K008 PERFORMANCE
           	
           METRIC ERRORS, CALENDAR YEAR 2012
REPORTING           1.            2.           3.          4.           5.           6.
PERIOD: REPORTED    CASES         W/           SUBJECTED   YIELDED      ENTERED      CODIS HIT
DATA, DATA IN       REVIEWED      BIOLOGICAL   TO DNA      VIABLE DNA   INTO CODIS
SUPPORTING                        EVIDENCE     ANALYSIS    PROFILE
DOCUMENTS, AND
THE DIFFERENCE
Jan–June 12
                        288            288          N/A         N/A          N/A          N/A
Reported
Supporting
                        281            281          N/A         N/A          N/A          N/A
Documents
       Difference         7              7
Jul – Dec 12
                        255            255          N/A         N/A          N/A          N/A
Reported
Supporting
                        257            257          N/A         N/A          N/A          N/A
Documents
       Difference        (2)            (2)
Source: OJP’s GMS and Site-work


       The differences for both periods were in part due to the fact that the
spreadsheets included duplicate cases. For the January through June 2012
reporting period, we identified nine cases that appeared in the spreadsheets more
than once for both the first and second metric. For the July through December
2012 reporting period, we identified two cases that appeared in the database more
than once for both the first and second metric. Jackson County officials stated that
other possible reasons for the differences were the way results were filtered or
simple human error.

       We also noted that Jackson County reported 61 violent crime cold cases with
biological evidence that were subjected to DNA analysis in the July through
December 2011 reporting period. According to NIJ’s Guidelines for Performance
Measures and Progress Reports, award recipients should not include this metric if
the award does not include funding for DNA analysis. Therefore, this metric should
have been reported as ‘N/A’ in that period. Jackson County officials stated that
while the award did not fund the DNA analysis, the county included the metric to
provide NIJ with additional information regarding the program’s progress and this




                                               11

was prior to the NIJ issuing formal performance measure guidelines. 4 Jackson
County stopped reporting the figure, based on a request from NIJ. We confirmed
the number was removed from Jackson County’s final progress report.

       We identified another form of duplication, which was the result of Jackson
County’s and Kansas City’s dual review process. We found that both Kansas City
and Jackson County were counting cases reviewed by both agencies as part of their
performance metrics. According to NIJ’s Guidelines for Performance Measures and
Progress Reports, cases should only be counted as reviewed once, even if they are
reviewed multiple times under an award or across multiple awards. This means
that in order to avoid double-counting, only one agency should report a case
reviewed as part of its performance metrics, regardless of the case being reviewed
by both agencies. In total, we found that as of the end of July 2013 both agencies
reported 485 of the same cases as being reviewed, 444 of which were reported by
Kansas City first. This means that Jackson County should not have reported
444 cases, as they had already been counted as reviewed.

       Jackson County officials stated that the plan to conduct dual case reviews
with Kansas City was explicitly outlined in the award applications and NIJ
encouraged collaboration among members of the criminal justice community.
Jackson County officials went on to say that the guidelines did not prohibit case
review metrics from being counted by two award recipients; rather the guidelines
prohibited case review metrics from being counted by one award recipient multiple
times. We are not taking exception to the dual review process itself, as it was
reviewed and approved by NIJ. Rather, our concerns relate to the fact that when
two agencies each count the same case as reviewed, it inflates the number of cases
affected by federal funds. In our opinion, the guidelines apply to multiple awards
administered by partnering agencies just as they apply to multiple awards
administered by one agency. The number can be inflated whether one agency
counts a case twice or two agencies each count the same case once. This does not
prohibit either agency from detailing their efforts under the program in the progress
reports, it simply limits what information can be included in the performance
measure table.

       Finally, we found that Jackson County’s progress reports overstated the
number of cases reviewed, based on our determination that 34 percent of cases
were ineligible, as outlined in the Expenditure section of this report. For the
progress report ending on June 30, 2013, Jackson County reported a cumulative
total of 1,242 cases reviewed and 1,242 cases reviewed with biological evidence.
According to Jackson County’s database as of July 2013, there were 1,280 cases
reviewed, all of which contained biological evidence. From those cases, we
removed any cases listed in Jackson County’s database more than once. We then

       4
           NIJ issued the Guidelines for Performance Measures and Progress Reports to award
recipients in December 2012. The guidance was available to award recipients prior to the July through
December 2012 progress report period due date on January 30, 2013. In addition to using the
guidance to complete the performance measure table for that period and all periods moving forward, it
is reasonable to conclude that award recipients could also use the guidance to revise metrics that were
included as part of previous reporting periods, if necessary.


                                                 12

determined the number of eligible cases not previously counted by Kansas City. We
found the actual number of eligible cases reviewed as of July 2013 to be 751, all of
which contained biological evidence. At the time of our fieldwork, Jackson County’s
award was still in progress; therefore, we were unable to identify the total number
of eligible cases reviewed under the award. However, it is clear that the actual
number of eligible cases reviewed under the program is less than what was
reported.

       Based on the information outlined above, we determined that the
performance metrics were not accurate. A final progress report was submitted in
November 2013. The report includes the same information as the report ending on
June 30, 2013, plus 123 additional cases in the July through September 2013
reporting period. It is possible that Jackson County counted additional duplicate
cases between the end of July 2013 and the end of the award, September 30,
2013. It is also likely that a number of the cases reviewed between the end of July
2013 and September 30, 2013 were not eligible under the program. We
recommend that the OJP obtain a final progress report, which includes the
corrected performance data based on eligible cases under the program.

Program Performance and Accomplishments

       As previously mentioned in this report, the purpose of the program was to
provide assistance to states and units of local government to identify, review, and
investigate UCR Part 1 Violent Crime cold cases that have the potential to be solved
through DNA analysis and to locate and analyze biological evidence associated with
these cases. We reviewed the NIJ cooperative agreement solicitations, Jackson
County documentation, and interviewed Jackson County officials to determine
whether the program goals were implemented. The goals and the degree to which
the cooperative agreements met those goals are detailed below.

       For Cooperative Agreement 2010-DN-BX-K008, Jackson County had five
goals. For its first goal, Jackson County proposed to review a minimum of 300 case
files per reporting period or 900 cases over the life of the award. Again, Jackson
County’s FY 2010 award application primarily addressed reviewing cold cases for
crimes committed between 1972 and 2005 that were known to have biological
evidence. As previously mentioned, we found that 34 percent of the cases reviewed
under the program were not eligible. We were not able to determine the amount of
time spent on the ineligible cases as compared to eligible cases. However, in our
opinion, the fact that 34 percent of the cases reviewed were ineligible likely
represents that a significant portion of Jackson County’s efforts and resources were
not related to the goal of the program.

        Jackson County’s second goal was to follow and improve upon the ‘Cold
Hit/Cold Case Inter-agency Guidelines’ and the ‘Cold Case Investigation Guidelines.’
The third goal was to work with Kansas City to improve a cold case investigative
checklist. The fourth goal was to meet bi-monthly with Kansas City and the Kansas
City Crime Laboratory to discuss CODIS hits, ongoing investigations, and case
prioritization. The fifth goal was to maintain and update all databases that record


                                        13

work completed by the cold case unit. We did not see any indications that Jackson
County was not meeting these goals. Again, it was not possible for us to determine
the amount of time that was spent on these activities that related to eligible cases
versus ineligible cases, meaning we cannot make an assessment regarding what
portion of efforts and resources the eligible cases represent.

       For Cooperative Agreement 2012-DN-BX-K031, Jackson County had the
same five goals as Cooperative Agreement 2010-DN-BX-K008. We did not evaluate
whether the program goals were implemented, as there was no activity related to
this award as of the start of our fieldwork.

       Based on the information outlined above, we determined that the goals of
the program were limited by Jackson County’s review of ineligible cases. Therefore,
in our judgment Jackson County did not achieve the program goals and overstated
its program accomplishments. Because Cooperative Agreement 2010-DN-BX-K008
has ended, we are not making a recommendation related to this issue. However,
the questioned costs related to Jackson County’s review of ineligible cases are
addressed in the Expenditures section of this report.

Conclusion

       The purpose of this audit was to determine whether reimbursements claimed
for costs under the cooperative agreements were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, terms and conditions of
the cooperative agreements, and to determine whether the program goals and
objectives were implemented. We examined Jackson County’s accounting records,
budget documents, financial and progress reports, and operating policies and
procedures. We found:

      •	 $504,524 in unallowable costs associated with the review of ineligible cases;

      •	 $415,829 in funds to better use associated with the review of ineligible

         cases;


      •	 performance metrics reported to NIJ were not accurate; and

      •	 Jackson County did not meet its program goals.

Recommendations

We recommend that OJP:

1.	      Remedy the $504,524 in unallowable questioned costs associated with the
         review of ineligible cases.

2.	      Remedy the $415,829 in funds to better use associated with the review of
         ineligible cases.




                                            14

3.   Obtain a final progress report that includes the corrected performance
     metrics based on eligible cases under the program.




                                       15

                                                                     APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of the audit was to determine whether reimbursements claimed
for costs under the cooperative agreements were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and conditions
of the cooperative agreements, and to determine program performance and
accomplishments. The objective of our audit was to assess risks and review
performance in the following areas: (1) internal control environment,
(2) drawdowns, (3) expenditures, (4) budget management and control,
(5) financial and progress reports, and (6) program performance and
accomplishments. We determined that monitoring of contractors and subrecipients,
property management, indirect costs, program income, and matching were not
applicable to these awards.

       We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. This was an audit of NIJ
Cooperative Agreements 2010-DN-BX-K008 and 2012-DN-BX-K031 awarded to
the Jackson County, Missouri Prosecutor’s Office (Jackson County). Our audit
concentrated on, but was not limited to August 24, 2010, the award date for
Cooperative Agreement 2010-DN-BX-K008, through August 12, 2013. For
Cooperative Agreement 2010-DN-BX-K008, Jackson County had drawn down a
total of $476,169 as of October 30, 2013. For Cooperative Agreement
2012-DN-BX-K031, Jackson County had not drawn down any funds as of the
same date.

       We tested compliance with what we consider to be the most important
conditions of the cooperative agreements. Unless otherwise stated in our report,
the criteria we audit against are contained in the OJP Financial Guide and the award
documents.

        In conducting our audit, we performed sample testing in three areas, which
were cooperative agreement expenditures (including personnel expenditures),
Federal Financial Reports, and Categorical Assistance Progress Reports. In this
effort, we employed a judgmental sampling design to obtain broad exposure to
numerous facets of the award reviewed, such as dollar amounts, expenditure
category, or risk. However, this non-statistical sample design does not allow a
projection of the test results for all cooperative agreement expenditures or metrics.

     In addition, we evaluated internal control procedures, drawdowns, budget
management and controls, and program performance and accomplishments.


                                         16

However, we did not test the reliability of the financial management system as a
whole. We analyzed computer based data provided by Jackson County to identify
the number of cases reviewed using award funds and the number of ineligible cases
reviewed. We also reviewed the computer based data for duplicates and errors,
and made appropriate adjustments based on our review.




                                       17

                                                                                APPENDIX II

                SCHEDULE OF DOLLAR-RELATED FINDINGS

                            5
QUESTIONED COSTS                                               AMOUNT               PAGE

Personnel and Fringe Benefits:

Unallowable Costs – Ineligible Cases                           $504,524               5-8

TOTAL QUESTIONED COSTS                                        $504,524

FUNDS TO BETTER USE 6

Personnel and Fringe Benefits:

Funds to Better Use – Ineligible Cases                         $415,829                 8

TOTAL FUNDS TO BETTER USE                                     $415,829

                                                              $920,353
TOTAL DOLLAR-RELATED FINDINGS




       5
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of the audit, or
are unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver, recovery of
funds, or the provision of supporting documentation.
       6
          Funds to Better Use are requested expenditures that do not comply with legal,
regulatory or contractual requirements, or are not supported by adequate documentation at
the time of the audit, or are unnecessary or unreasonable. Funds to better use may be
remedied by not approving or disallowing future payments or the provision of supporting
documentation.


                                                18

                                                                                                                          APPENDIX III

                      JACKSON COUNTY, MISSOURI
                    PROSECUTOR’S OFFICE RESPONSE




                                             Jen., Pelers IJnkcr
                Jackson County Prosecuting Attorney
                                                  JallU:lI) 27.2014


Duvid M. Shccren
I( cgion<ll AuJi t Manllller
I:)c:nn'r RCl:ion ~1 Audit Olliec
Olliec o ft hc hlS]X'Ctor OCllcfJI
U.S. IXP;lrtIllCllt of J u~tice
1120 Lincoln Sl n.~l. Suile 1SOO
l>Cllver. CO 110203

IU:: om\,C of lmllCClor ( ; \' ncrll l '~ (01( : , ,\nd il of .In\'k.u n <':1.111111) , Mi' . ll nr i·s ('OIl III·I'lIIi>.,
                                                                                            •
" J.:rt·\'mcnl Nnmhl'l"s 201O· UN· H;\· KUUH lind 2U 1 2 · l)i~ · II X · K U .H : ~ uh ill l: (,,, hi CII W~ .. i lh
IINA GrlllllS ' \"·III·d.'lI h~ Ih., Nliliunul I ,, ~ Iilul" !l r .lu ~ l i{·., (N U )

[}CIIr   Mr. Shcercn:

111is kl1cr is in rcsponso.: to Ih..: Of"l1cc ur 11l~~C I"r (icn~ml'~ ("'01 0") "Ildil lind Dml\ ,\udn
I(cport conccrning Jlld.!>I.l1l ('ount)' Mis!louri's I Y·:201O. and I' Y·2012, Soh illil ('l)ld ('lI ..... S "llh
DNA limn! ""nTd b)' Ihe Nuliun.d 1 1I~litlile I) f J u~Iicc ("·N I)"").

On p:lgC IiflL'I.'n ( IS) of Irn: Dmll AII<.III R1.'port. ()I G n.'C()111111\·nds Ihal Ihe omc~ I)f JU!>lic,'
I'rou.mms ("OJl'") "Rcml'tl) Ihe SSO-l,S24 ill wl"l/mll/hi.' \Jue~tiollcd ,'",,. IN;ociulCd Ililh 1111.'
I"\:lk" of rm.'IIK/hl., eUS1.'S rU lld~r JlleJ"WIl <.:ount)·s I Y·20JO n\\uTdj" (eml'h ..... i~ "dd~'tI). In
Appi:nd i~   II of tiM! n:port. 1)11 1IlIlle cightL'I.·1I (I R). "\Ju,')lIl)ned costs" u..... Udin~-d. lhat definition
SIllies in full:

          QlICstiol\\.'tI CO'I~ an.' txpo.:ndilun:s thO! do !lOl ,ompl)' "hh 1~'llul. r~·gllialul"). or
          conlractu;l] n.'\juin.·mCnls, or un: 001 ) u[lllOrted h) ad~"I\':II(' UUCUlll"'IWIil)lI III th~
          time of lht ;Iudit. ur UI"l: unllcc"~"'lry I'r UIln::lso.",blc. QII1.')lioneu ~u~I~ m... ) be
          rcmcdiw b) o tl"liCt, \Iailtr. rt.'col1.'r>· 1)[ funds. or tiM! pmli,iull of supporting
          docume lllllli(ln.

One of O IG's princiJl111 UIlCguliolis     i~ th"l "14 percelll of Ihe cn~'S n.'\ ic\\~d b) Jltekson ('uunt~
u)m~    U\\UN fUllued positions 'lO,'r.' 001 eligible unucr Ihe pmlll"lll1l .               .. (lilldillgJ 1111<1
Rl"<:orllmcndalions. Po,!;e 4). lIo"":I~r, till; reader \\ill ob.'Ol.'l"\c Ihut OI G'~ Droll Audit Rcpurt is
completely bcrell of cilaliun I() (I sinille "leglll," "n:gululor~." or ·c()mr,lclu,ll" l\:\Juirvmcnl in
sU PflOn ofils findillll thul UII) It""H fundilill ullucrduf I Y·:2010 or I Y·2012 a"ard, t,m~tilU1~
"\Jueshulled costs" pursuant 11) Ihe 1100'" (k fmilUln I urthcoll()n:. our IIl>l: uf Ilrolll fUIIUill¥ "'"
support~-d b) 1110,"" Ihan (I(Il"III'lte documetUntioll and ".I~ 1101 ulln.",cs§ljf) or un ..... awn .. ble ill an~
WIl)'. O IG'1 fi ndings n[l!X'ur to bc simpl) 11IlSl;u 011 IOC pcrwnal iim oftoc uudltoN II1I0h"d. un·




                                                                   19

tethered to the defini tion of "Qucstioned Costs." which is eih::d as the ulleged basis for thosl'
findings.
                                   I. IlACKGRD UN I>

During the week of August 12. 2013 . representatives trom OIG audited Jackson County's
Solving Cold Cases with DNA program as part of DIG's larger audit of NIJ's Solving Cold
Cases with DNA grant program. On Augus t 15,2013. a preliminary on·site exit intcr"ic\1 \Ias
conductcd betwcen DIG audit stalf and Jackson County personnel.

At this meeting. some cursory preliminary findings Ilcrc providcd by the OIG auditors and Ill.'re
discussed. Among these discussions wus the Solving Cold Cuses with DNA progmmmatic
definition of what constitutes a "cold casc." During the exit interview. Auditor _
stated Ihat discussions between OIG and NIJ concerning that definition would continue after Ihe
Jackson County mldit sile visil had concluded.

On September 12. 2013. a phone conference was held during which Auditor                    and her
supervisor.         I          ' exphlined certain O IG findings (md rccommcndations related to
the audit. At the time this teleconfer('nc<.' was held. the Jackson County Cold Case Project
Manager had just retumed from vacalion and had nol had an opportunity 10 revie\1 NIJ' s FY·
20 10 Solving Cold Cuses with DNA Solicitation. or our granl application pursuant 10 that
document. After Illuch discussion (lnd disputation concl.'rning DIG's findings. as well a:; OIG' s
proposed recommendalion to NIJ regarding our unrclaled FY·2012 cold C:ISC grant :lwllrd. I\e
requested that OIG's findings and recommendations be outlined in writing and provided to m~
office. After some initial hesi\:ltion. OIG agrl.'ed.

The reader should be awure that prior to the receipt of             I a     . or argumcnl from
our office regarding DfG's findings. OIG I        'i '                   notified us during thc
call that OIG hud decided that it would recommend I               recovery of an undetl.'rmined
portion of our FY·2010 grant award: and Ilouid funhl.'r r~'eommend that the entirely of our FY·
20 12 granl award be withdrawn and realfoeated " lor better usc:'

On November 15.2015. our oflice sent:m email to Audilor                    llotif)ing her th,lt lIe
had now had an 0PlXlrtunily to review NIJ's FY·2010 Solving Cold Cases with DNA solicitation
and our reluted application. We requested a second opporlunity to diseuss OIG's lindings in light
of the inlormation that we had learned during our review.

A sccond teleconference wus scheduled for November 19. 2013. During that conference \\ith
Auditor .             and Supervisor _           we called their attention 10 certain f:lets that \Ie
believed had not been considered before OIG finalized its fin dings. conclusions. and
recommcndations. Again. OIG's decision on il findings and recommendations preceded (IllY
input. cXplunalion. or argument from our office.

On November 19.2013. after our confcrenee call. Auditor                   em:liled us u document
oUllining OI G's findings (lnd recommendations. The bullet' r.:~:~c;:'r~'h~O~";:c:fii~ndingS Ilerl.'
as follows: "Duplication of performance metrics"; ..                                     ml.'tri(·s":
"Unallowable Costs"; :md Funds to Belter Usc:'

On December 2, 2013. Auditor                advised us by emuil Ihal OIG had decided to alloll
us to provide an official response \0 ro.',I,.;o",,,;,;cg Jackson County audit ])rafl Audit Repurt.
She also advised us that Juekson Count)'s responsc would be appcndcd to the Final Audit
Report.

                                                  2




                                                20

Wc strongly and categorically disagree with each of the lindings outlincd in the Drai! Audit
Repon and the Recommendations SCI forth on page 15. O IO's fi ndings wi ll be lIddrcsscd in thr
order presented in the Drllfl Audit Re pon.

                II. THE PROG llAMMATIC DEFI NITION OF A "COLD CASE"

OIG attempts to justify its findin g th:.1t34% orthe cases reviewed by j,\ckson County during our
FY·20 10 Solving Cold Cases with DNA gTllllt \\-cre "ineligible" based. in pan. on the following:

        According to NIJ officials. the gellerlll c'ol,,'epl behi nd the program \\as to take
        ildvilntage of the advcnt of DNA technology and subsequent advunces to solvc
        cold cases that occurred at a time when the technology was not available or
        advanced enough to process the biologi(;lIl cvidcn(;e. This statement is ill lill e
        with the 2010 program solicitation. which states that advances in DNA
        tcchnology have increased the successful lIn<llysis of aged. degradcd. limited. or
        otherwise compromised biologi(;ul evidence. Biological samples once thought \0
        be unsuitablc tor testing or that gellcrated ineonclusivc n:sults may no\\ be
        analY-.lCd. These !>·trllemell b· poillf tu th e /tIC" IIUlI thc fu nds are meant tor cases
        where limits in DNA technology at the time Ihe crime was eommiued prevented
        the investigation from moving forward.

        NIJ ollicial s also stated that the program was Iwl 1111'11111 10 cover cases \\ith
        biological evidence that WllS obtained during a time when DNA technology was
        available but a decision was made by the agency to inaclivlIIe the case without
        processing the biological evidence. 11,is c'urresl'ulI(l!i IU Nlr s definition of a cold
        case; that is any unsolved case lor which all significant investigative leads havc
        been exhausted. Ifsu itablc DNA tcehnology \\as lIvailable at the time the crime
        was eommittcd and biological evidence was collceted. the biological evidence
        represents a significant investigative lead. If the biological evidencc was not
        analyzed, all investigative leads have not been exhausted and the case docs not
        qualify under the program. T"i!>' slip lllllliulI 1/I1llerscures 1"1' /tIel rllllt thc review
        and investigation of certain cases cannot be funded using program limds.

(Draft Audit Repon. p. 6: emphasis added),

The vague and intangible phraseology highlighted in the above tll'O paragraphs reveals that
DIG's interpretation of the detinition of a "cold casc" is a brand new agglomcration of
supplemental verbiage and subjecti ve inference that DIG force-feeds into the (lel//{I/
programmatic definition in order to accomplish its predetC'nnined objcctives.

Recognizing the extent of its reconstruction of the definition. GIG grudging concedes, .. I"h ile WI'
flckll o ll'h!rige I//Or NIJ '.~· Ile{illirioll of II coM CII.~e 1 101'S IIlII r efer .~".!cificfll'" 10 hiolortieol
el·illel/(:e, rhe de{illilifJlI eflll hc refl,~O/U/hir ill ferrell, hI/sell Oil the .~'olicitolioll fI.f " 1I'I/olc"
(Draft Audit Repon. p. 8).

Thus. DIG concedes-as it must- that the programmutic defi nition of a cold case fuils tu
provide applicants with explicit notice that NlJ allcgedly considered the existence of biological
cvidence an "investigative lead." Rcmarkably. howe\er. DIG nevertheless cl:lims that such :l
construction "can be reasonably inferred. based on thc solicitation as a whole:' That claim
amounts to nothing more than the subjective fiat of thc auditors. It is not groundL"(! in explicit


                                                         3




                                                       21

"legal. regulatory. or eontraelUal requirements" as dic tated by the definition of "questioned
costs" set forth on page eighteen (18) of the Dr:lft Audit Report.

FurthemlOTC. in contrast to OIG's pO,\,! lux, 261-word, two-panlgraph defi nition of a "cold case"
sct forth above, the FY-20 10 and FY-2012 Solving Cold Cases with DNA grant solicitations
define a "cold case" in a mere 29 words, to wit :

         For the purposes of this announcelllent: "vioknt crime cold casc" refers to any
         unsolvcd UCR Part I Viole11l Crime case for which all significant invcstigative
         leads have been exhausted,

                 OIG's Iteconstructed :lnd l{cl roacth'e Ilefi nition of a "'Cold                   Ca ,~e"


During the cxit interview held at Ollr office on August 15,2013, Auditor               notified us
that discussions with NIJ would "continue" about the "meaning" of
definition of a "cold case," During our September 12, 2013, conference
Supervisor            advised us that OIG had held discussions with NIJ about the mcaning of this
definition alief our on-site audit had concluded, She stated that these discussions \\crc \\ith the
NIJ Solving Cold Cases wi lh DNA grant progrlllll managers and three (3) NlJ stalrallOrnC)S,

As an preliminary mailer. it can't escape notice thtl! if the progmmmtllic definition of a '"cold
case" was allegedly so clear, they why did OIG feel that it was necessary !O further discuss and
clarify this definition ill a meeting with tWO (2) program rmnmgers and three (3) NIJ statT
attorneys?! The simple answer is that- given OIO's current position- no sueh discussion
shollld Jrm'c been necessary, The faetthat further discussions were needed is clear evidence that
the progr..unmatic definition ofa "cold case" set forth in N1J's 2010 und 2012 solicitations is
vague, ambiguous, and eOlllcs nowhere ncar the contorted, post hoc, 261·word reconstruction
asserted by O[G,

Additionally, the very [act that OIG's intcrpretation of the programmatic definition of a "cold
case" required the \;'xtensivt..'-Und substantively dilTerent definition:tl verbiagc sct forth abo\e,
is furt her evidence that the progr:nnrllatie defini tion failed to provide applicants \\ith fair nntit,~,
regarding its newly conslnu.:led parameters,

Furthermore, if the programmatic definition of a "cold elise" was lruly that which is asserted
above by OIG, then why dilln ', NIJ simply defill e it tflal 11'(1)' ill Ihe IllllllerOIU' l'olidllltiQIIJ
11I//lOlI/lcell?1 The fact that nothing cven close to O[O's new definition was ever provid~'d 10
grant applicants is addi tional evide nce that O[O's pm'l hoc interpretation was nOI NIJ's originul
intention,

1/0Il'e.'er, 1II0st fllllll(lll/el//(IlIy, if OIG 's illterpretlltioll of II "cold case" I"IU' ill f ll el CI) II,\'istl.'lI t
N IJ's origillill progrulllllUilic dl.'fillili(JII, 1111.' 11 "'h" did N /J IIIl'IIrll Jacksoll CO llllly f Ull/ii,,::
 I/II(/er lire F I'-20JO (l1Il1 FY·2012 ,'olidtllliOI/,' after ollr (lppliCllliOlI ,\'ubmirtl'(1 ill both ),('lIrl
                                               \             \
d ellrly ami ,\ pecijiclllly I/(/I'il'e({ N /J /ha/ I) 5TH te('/lIIolo1:), 111/(1 beell al'(li/(,bie ill our
jllrisriiclioll l 'j llCC 2000; (111(1 2) 111111 11'1' pllllllle(11o rel,ie w C(ll'e)' lip 10 til e y ellr 2005 (1010
 IIPlllicalioll) (I]/(/ bet ween 2006--2011 (2(J} 2 (lpplim/ill/I)? Wily lI'(ll' '"is 1I/!1'er rIIi~'ed ill
 rel110IIse 10 lilly of ollr III/Illy progren reporls, which dc)'crihed ill gre," (Ietllil ollr CIIl'e rel'ie ,,',
 illw)'tigarioll, (l//([ clrargi"g (Icl;"ilielIl)r I'jofellf cold c(u'es CO li/milled ill JacksOIl COllilty (ifter
 2000? Wlty II'(lS tlri,,' /l ewr ruised by NIJ Ill' (/II in-lie ill !!.!!.r IIf ollr progNl/Il/lllltic //ltt/its?




                                                              4




                                                            22

Tcllingly, OIG wholly f3ils to addrcss thcse inconvenient facts in its Draft Audit Report. The
reason is simple: It completd y undermines OIG's position regarding thcir ncw and revised
programmatic definition ora "cold case,"

             The "Soh'illL:, Cold Cascs wi th 0 1'1 ,\" Sulidtllt iull ndillitioll of a "Coil.! Cas('"

              For the purposes of this an nounecment: "violent crime cold case" refers 10 till)'
             unsolved UCR Part I Violent Crime I:ase for whil:h IllIl'igllijiC(llIt illl'e)'ligllfil'e
             lefl(/s have been exhausted (emphasis added),

The above programmntil: definition of 11 "cold case" appeared in the FY-2010 Solving Cold
Cases with DNA solici tation oflCrcd by NlJ . The stated purpose of that grant was 10 suiI'/' ('uld
c(lses lI'il lt DNA. Thus, to assume that applicants knew that "all significant investigative leads
have been exhausted" illcliu/cd DNA {coffs is completely counterintuiti ve and patcntly
unreasonable, That is simply because the s/(/Ied pl1rlms/' oflhe gralll was 10 soh'e ('(Ise}' 1I.~illl!
lellll.~   1II1lI"! IH'(lil(lh/e tl!rtJIIgl! D NA 11'.'lillg!
                                                     \

Additionally, the above definition utilized the modifier "(/IIY" 10 describc those UC){ p,,m I
Violenl Crime cases on which work may be perfonned under the gmnt. Thus, cont rary to OIG's
assertion. there is absolutely no (IUalifieat ion. limitation. or restriction in the definition that
arbitrates allowable gr.mt-funded work based upon whether suitable DNA technology existed al
the exact moment in time that a UCR Part I Violent Crime was committed,

 The defin itional phrase. "for which alJ signifiellnt investigative leads have been exhausted." fl!
 /101 re/mil'e 10 {fill' PflrliCllfur poillf ill lillie, lind by its explicit terms itf(1i/~' 10 elllail evidencc
 amenable to DNA testing and the tcmpoml ('xistencc of DNA technology in a particular
jurisdiction, Accordingly. thc usc of the modi fier "an) " in conjunction \\ ilh a lIon-rela/il'l' lillie
frallle and the fact that th e wortl ';/clIIl" l'Pl't:ijiCfl/~r jails 10 ellfuil cI'irll'lI ce (1IIICIIIIMe to ON; 1
    lillg , would cause lilly reasonable applil::mt 10 conclude exactly whut wc-and countless other
 tel"
 cold case gramees- rcasonably believed (and currently believe): that a violent crime "cold case"
 is an unsolved violent crime for which all investigative leads (non-forensic leads known to
 investigators) had been exhausted, but still has the potcntial 10 be solved through DNA testing,
 OIG's elaim to the contrary- that the definition providt'd applicants with notice that DNA
 technology (It Ille lIIolllellf that Ihe crillle II '/U' commillcil must have "prevented the investigation
 from moving forward"- is simply no\\here to be lound in NU's solicitation document and is
 pure revisionist history,

Our under.;tanding of the progr;lmmatic definition was- and is-<:onsistent with both the plain
and limited language set fonh in the solicitation documelll. as well as the following directions
provided on page nine (9) of the 20 10 solicitation. unde r the heading of "Program NarmtiH,";
"Proposals must clearly define the slmlcgy (/1/(1 crileria that will be used (0 iael1lify, prioritize.
al/d se/ecll'io/el1l crime coM cases Ihat lu/l'l' Ihe polelllia{ 10 be sO{l'et/llirollgh DNA (lIl(lI)'~is, "

Our belief that our interpretation of the dclin ition of a "cold casc" was correct is also consistent
with a document publisht.'{] by NlJ in J\lI) 2002. and cited in its 2008 Solving Cold Cases with
DNA solicitation dOCllmelll (the first grant under \\hich we applied), entitled, "Using DNA to
Solve Cold Cases:')

Regarding thc definition or a "cold c;lse." the report adviscd:

I Notional Inslilute of Justice. Usb'g DNA 10 S<J1I'c Cold CIISe$, Juty 2002.

                                                                 5




                                                                23

         "'ltill! Ih e C(lses con.~iderl!ff (or tltis kind o{rel'iew will I'{/r), fro", illri.w/iclio/l 10
         jllrbuliclioll, it is illlpOr((/111 10 defille lIIillillllllll refillirelllell/l' Ilwl will bem/it
        from Illij' appfO(lcli. Issues such as statutcs of limitation and solvability factors
        should be thoroughly examined in coopcmlion with a prosecutor and Ihe forcnsie
         labomtory to establish guidelines for case selection. II will also be important to
         identify thc ultimate goals of the program so that the selection criteria e:m be
         tailored to meet those specific goals.

(Page 17) (emphasis udded).

         It may be beneficialfor (I j l/ris(liclitm     If)   (lefil1e CfU'el' uecording to several
         solvabililY factors.

(Page 17) (emphasis added).

 The clear language of the document states that cases considered for review will wry ill eflch
jllrisdiction. Thcrc is 110 indication that only a panicular category of cases. deli ned by time.
 tcchnology, or the conjunction of both timc fllld Icdlllology (as alleged by OIG). arc the onl)
 pem)issible candidates for a "cold case" review process.

Our beliefs w~re furthcr i~l~ue.nccd b~ ~I document also .refen: nced b~' Nil in 2008 Soh il~5   ys
Cold Cases wlth DNA sollcl tullOn, cnlltlcd. "Cold Case Squads: Lcavlng No SlOne Unlumed. -
This documenl was publi shed by Ihc Burcau ofJuslicc AssiSlance in July 2003. In pcrtino.'nt pan.
the document states on page four (4):

        The proceS}' by wllich Cfl!iCS (Ire rel'iell'l'd fIIlfl {'olll'iderl'(1fur referrllilo Ihl' cold
         eflse slJllflIl mrit'S.  Thew CIIWS fire 1I.\"Im"" fit least (I rellr oM and cunnot be
        addressed by the original homicide squad becausc of workload. lillie conslraints.
        or tlte luck of I'if/ble lelllh .. III 1I1(IIIY illsllI/U~n·. III I' sl/pen'isur, eitfler willi or
        willlolli the iI/pilI (l//([ COl/sellSliS of Ihe .W/I/ad, (leci(Ies which C(Ij'es fire referred
        10 th e cold Clll'e s(/luul. In somc instances. prosccutors will rcopen cold cases or
        initiat~ cold case investigations with state and local law {~nforcemcnt agencies.


(Emphasis added).

In summary. this document advised Ihllt J) the process for cold casc review varies: 2) cold cascs
arc those thaI are at least one (J) year old: 3) this is a category of cases in which viable leads arc
lacki ng; and 4) Ihe unil supcn'isor should dccidc which eascs will be pursued.

 It is clear from Ihis document Ihal the Dcpartment of Justice believed that the definition of a
 "cold case" was /101 cxclusively one Ihal occurred at a time whcn DNA technology was nol
availublc. It is also clem from the document thaI "'the luck of viable leads" is the exact reason
 why resort to DNA analysis is necessary. Accordingly. IIl1dl'r the flefillitioll uf {/ "cold nm'" l('/
forlll ill Ihij' document, evidellce fIIm!lI(lble 10 ON/! {//wlysis is /lot (I category of /!I'idellc"
ellfuiled wilhin III I' flejillilio/l of ;;I,juble !ellll: i." IIml'el'er, 111m is ill complele fJPJl M ilioll 10
                                                         !
 DIG 's cllrrelll positiull .

Furthermore. OIG's rcvised dclinition of a "cold casc·· would lead to eomplctely ubsurd results.
Under OIG's "all significanl in\'csligutivc leads havc becn exhausted" interpretation. no "cold

I U.S. DepanmcnL of Jus1ice. Cold CU.II: Sq/ll./d, ; Lt'<Il'j"g!l'u Slu"e Umum~d. July 2003 .

                                                              6




                                                        24

case" in any jurisdiction \\ould be eligibh: for review under the Solving Cold Cases with DNA
grant ifSTR tec hnology had been online for ony all/UIilII of/ill/e prior to a n Nil cold case award.
This is because the evidence in question would huve been available for SUII/e amount oftinte-in
many cases for morc than a decade--ttftl'r STR tec hnology had been ilvuilable in a particulur
jurisdiction without DNA analysis having been pcrfonned. As such. that evidence would h:l\,,;
constituted a "signifieant invcstigftti ve lead" thftt had nOt bcen "cxhaustcd" by DNA tcsting
before the grant was awarded, As a result. pursunnt to DIG's newly.minted definition. analysis
of the evidence or review of the case would be impermissible.

Take. for example. u violent unsolved cold euse eommiued in 1987. in which biological evidence
was recovered. T hirleen (13) ycars later. in 2000. STR testing became available in the
jurisdictio n where the crime occurred. In 2010. authorities in that jurisdiction flpplied for und
were awarded Ntrs FY ·2010 Solving Cold Cases with DNA grant. Review of that 1987 case by
grant·funded personnel would unallowable under DIG's de linition of a "cold c<lse." Th<lt is
because tht: jurisdiction hud afllll decade during which the availability of STR DNA technolog~
coincided with the e.xistellce of a "significant invcstigative leud." to wit: thc biological el ide'tleL'
recovered in 1987. FurthemlOrc. during th:1t decade. that investigative lead hod not been
exhausted by DNA testing. Therefore. case review. investigation. and DNA analysis with grant
fun ds would not be allowable.

In contrast. tor a similar case commined in 2009. a FY·2010 grantcc would have only had one
(I) year in which to "exhaust'· "all significant investigativc leads." ruther th<ln 0 full decudc for
thc 1987 case. Additionally. ifSTR DNA technology had no t heen availa ble unti l 2010. a FY·
20 10 grantee could permissibly rev iew. investigate. and testllll cases up to that date.

DIG, howeve r, further twists the definition ofa "cold casc" to link the te mporal commission of
the crime and the collection of evidence in that case \0 the existence of unspecified DNA
technology at an unspecified lonltion (j/ Ih(! mOlllell1 ill lillie Ihe crime II'(/S cOl/lmilled. Ihis. of
course. is a distinction without a difference from the above e.xamples. There is no logicall~
significant distinction between a cold case that was committed at a time Ilhen "DNA
technology" (howevcr that is defined) was IIO! "rcadil y avai lable" (howcver that is delincd)-----but
subsequently became uvailable and yet DNA analysis wus not performed unti l yeaTS later. versus
!I case committed ut a time when sueh technology II'OS lll'uilable. but testing was 1101 immedialc1)
conducted. Both cases share identical common denominators: I) an unsolved violent crime
"cold case:" 2) the existence of biological L'videllct': and 3) the concurrent exiSll'nce of DNA
technology and that biological cvidencc.

O IG's revised definitionlcads 10:! host of additional problems that will surely give rist, to futur<'
pM/-hoc jer ry-rigged programmatic detinitions.

DIG states:

        If suitable DNA technology WliS :!vaihlble at the lime the crime was eommitled
        and biological evidence was collected. the biological cvidence rep resents a
        significant investigative lead. If the biological evidence was not nnalyzed. all
        investigative leads have no t been cxhausted and thc case docs not qualify under
        the program.

(Draft Audit Rcport. p. 6).




                                                    7




                                                  25

This definition is completely unwork3 ble. First of 311. DNA technology is not a "[cad.
Rather-as the term implies- it is /t;(:hllology that has no association to any p<lnicul<lr case.

Second, exactly what constitutes " DNA technology"' is not defined by OIG. Docs "DNA
technology" refer to RFLP testing "tcchnology" Ihat was ava i[3b[c in the late [980s and
throughout the [990s? What about first+ge nemtion PCR "techno[ogy:' including DQA
Polymarker and DIS80 testing? Those "DNA techno[og[icsj" wae lIl'Uilllble from 'h e lilfe
1980s tl"ollglumllhe 1990,\', I [ow~ver, pursmmt to the DIG's new definition, if evidence in an
unso[vcd violent crime committed in 1990 lIas suitable lor RFL P or first generation I'CI{
testing-and that test ing did not occur unti[ STR technology came online sometime in the [Hll'
[990s or carly 2ooos- that case would not be eligible for review, investigation, or forcnsic
analysis. That is because a ·'significant lead·' cxistcd in 1990 (biological cvidence) co ncurrclII1~
with the existence of'·DNA technology" (RPLP/PCR), and th<lt '·le<ld·' h<ld nOI been cxhullstcd.

Casc qualific.'ltion under this new defini tion will 3ppmcntly rise or fall based upon wheth"r past
DNA technologies could huve successfully developed <l foreign profi le bllsed on informlltion
gleaned from then+existing qualllitation methods and measurcments. Thus, spccific nanogram
levels of DNA for each past sample. in conjunction with the capabilities and limiti.ltions of tht,
technology in existence at the time the crime \\as commined. will be detcn11inative , [f 11K'
quantity of DNA C.'l:traclcd from a panicular S,1Illp!c was suflicicnt for then+a\ailllblc
technologies to have detected a forci~n prolile. then uccorJin~ to DIG. that case \Iould he
ineligible for review under NU's Solving Cold Cases with DNA program. If not, it mighl he
eligible for review. Ilowcyer, morc (IUcstions rcmain. For example, what if the qumltity of DNA
known to be available at the time that a violent crime was committcd might have be(,n suBkknt
to detect a profilc with formcr tcchnologics. but the lab elected to be conservative and wait for 11
K'Chnology that it was more confi dent could detl'Ct a profik? Wh(lt if th(lt u'Cision 1\:lS
                                                                                       ..
unreasonable? What if this decision was wrong? What le\'c! of ccnainty is necessary under the
programmatic definition? What if the lUlS\\Cr wus unknowable? Who is n.:sponsible for
researc hing and mak ing this historical. seientifie determination in each case? For each sample?
None of these questions arc answered.

Third, thc ncw defi nition asks whether "DNA teehnolog) was available at the time thc crime \qt~
committed:' This prompts the question: ·'(/wilable U"/wre"? Docs this mean nationall).
region3l1y, or locally {j\·oilable? What if DNA tcchnology was (lmilable at the FBI crime l(lb at
the time the crime was commiued, but not at the jurisdiction in question? What if DNA
tech nology was (II·ailable at a state lab at the time of the crimc. but not thc locul lab of the
jurisdiction in question? What if it was Mailable at a lab in the neighboring county, but not at
the lab of the investigating jurisdiction? Wh:1I if "DNA technology'· was ami/llble at cenain
privatc labs across thc country at the time the crime was commilled, but not at the jurisdiction in
question? To fun her eomplicale m:llleTS. which generation of DNA tcchnology is rcferred 10 as
being "ami/able "? RFLP? First gencmlion peR? Only ilutosomal STR testing?

DIG's new defini tion also prompts the question, ·'available how·'? "Avai lable:' meanin~: the
technology w..s in "existencc" SOlllewhere at Ihe lime of the crimc? Docs it mean ecol1omi('ally
amilable to the investigating a~ency at thc lime of the crime? Docs it mean logistically
m·ailoble to police at Ihe time the crime was committcd? These examples demonstrate ho\\
ullerly unworkable O IO's revised definition of a ·'cold t'asc·· \\ill be for grantees. If this
definition stands, confusion will be legion.




                                                 8




                                                26

    II I. NI.II-IAI) i<'lJLL NOT ICE elf" ANI) EXTENS I VE EXl' lmlENC E w r n l Till S
   GRANTEE'S I NTE IH' RETAT IO N OFTIIE PROGRAM MAT IC 1) EFINITON OF A
                  "COLD CA SE;" A nEFINITI ON CONTRARY TO OIG's
                                 RECO NST lloUCTE Il IlEFI NITI ON

Perhaps the most compdling evidence that the intended programmatic meaning of a "cold cus.,:··
in all past Solving Cold Cases with DNA solic itation documents is 1101 that which is II OW
asserted by O IG is thc clear and ulMmbiguous notice provided by Jackson County to NIJ about
our interpretation of that definition. in conjunction with NlJ's e:>:tcnsive experience with our
program.

In Appendix II, page three (3) of Jackson County's FY·2010 Solving Cold Cases with DNA
grant application. under the heading "Project Background and History:' we stated: "Cold Cllse
illl'eSfigarioll alit! prO!il!c fltioll willi O.NA lecflll%gy lias be('11 ollgoillg ill KaliJas Cily, Ja cksoll
COllllly, Missollri sillce 2000. This endeavor was largely facilitated by the implemellflllioll of
STH DNA lecflll%gy lit til e K(IIISIU' Cit)' I'otice Crime i.£lbor(ltory (KCPD CrimI! L(lb) /lUll
l'ame year." This exact same statement was also provided in the first paragraph of our 2010
application allachmenL, '"Thc Kansas City Model of Cold Case Rcvicw."· Accordingly. NlJ lIas
placed on explicit notice that STR DNA tcchnology had been online and operational in our
jurisdiction sillce tlte year 2000 ,

In addition, our FY-2010 grant application clearly stated in numcrous passages that we had then­
identified 1.748 cases fo r review which contained cvidence amenable to DNA analysis that had
been eommined between 1979 and 1005 (see application narrative pp. 9, 11.30: see a/so Project
Background and ][istory. p. 80). Accordingly, NlJ was cxplicitly notified that I) STR DNA
tcchnology had been operational in our jurisdiction since 2000: lllld 2) that we were plunning to
rcview and investigate cases with grant funding that had been commiued five (5) years (f[it'r
STR DNA technology had become available in our jurisdiction.

We also advised NIJ that 2010 grant funds would be used to review unsolved violelll "cold
cases" commilloo withill fhe I}(/st three (3) years in order 10 toll the running or the statute of
limitations. (See application narratil'e. p. 14).

Furthermore, during the tCnll of our 20 10 award. we provided NlJ with numerous programmatic
progress reports. In eal:h of thost' reports. we suppl ied metrics regarding the number of cases
reviewed. along with a separate list and detailed description (incl uding newspaper articles) ofth..:
cases that we had investigated during each reponing period. By the conclusion of our 2010
grant, we had reponedfiftel'lI (/5) ("IIses to NIJ that we had reviewed. investigated. and thargcd
which occll rrefl lifter tile yellr 2000, Three (3) of those crimes were committed lifter 1005.
These reports were 311 rcviewed and accepted by NIJ. We never received lilly oral or wrincn
communication from NlJ that our work fell outside the programmatic definition of a "cold case."'

Additionllily. NIJ Cold Case Grant M;U~~~: ~~!~!~ eonducted a comprehcnsive audit of
our FY·201 0 Solving Cold Cases with                  I  the week of Jul y 22, 2013. The exit
intcrview for that audit was l:onducted on               At no time. either during or at the
conclusion of that audit. werc wc ever advised that our undl:TStunding of the programmatic
definition of a "cold case" was erroneous.

Moreover, we were a successful applicant for NIJ's FY-2012 Solving Cold Cases with DNA.
That appliC~lIion included identical documentation noted abovc regarding the faetthat SrR DNA
technology had been available in our jurisdiction since 2000 (see FY-2012 gr;tnt applkation.

                                                      9




                                                    27

Appendix II I, p. 3, "Projcct Background, History, Timel inc find Accomplishmcnts": SCI' a/so
2012 grant application p. 8. pp. 16-17. and "The Kansas City Model of Cold Casc Revicw."
Appendix IV. p. 7).

In our FY-2012 application. wc specifically advised NIJ that prospective grant fundin~ wuuld bc
uscd to review cases thm included then-identified olTenscs commi lled be(ween 19 79 u1II1 10IO­
"I' 10 II f ill/tell (10) yean' lifter STH (e.Hillg Iwd become flI·a;lable ill ollr jllrisdiction! (see
2012 gram application PI'. 3. 8. 27). NIJ was also advised that we pllmncd 10 usc granl funding
to review cases cOl1lmillcd within Ille pw'{ IlIn'c (3) years l'Or the purpose of filing --John Doc"
charges to toll the stalute of limitations. (See FY -2012 application, p. 18).

In light of the abovc evidence. it is inconceivable that the aelual programmatic definition of a
"cold easc" is consistent with that now being assertcd by 010. OIO's altempt to retrofit this
defin ition- which has ~n provided to and relied upon by grantccs in all past NlJ "cold casc"
solicitations- not only sirains crcdibility, it is bereft of any credibili ty at aiL l'vlol\'
fun damentally. DIG's interpretat ion is completely refuted by NlJ's conduct and communications
with our office ovcr the past six (6) years.

                              I V, O I G's ON-SITE CA SE REVIEW

On page seven (7) of the Draft Audit Reporl. 0 1 Slates that that in fo ur (-\) of the caso.:s it
                                                     0
fCviewed during its on-site visit. "bio!ogical cvidcnce had already been proeesscd and uploaded
to thc Combined DNA Indcx System (CO]) IS) as pan of the original investigation. which lIas
prior 1 the case being rcviewed as part of this award." OIG thcn citcs to the FY-2011 Solving
       0
Cold Cases with DNA solicitation as the basis for its conccm.

First. Jackson Counly no.:vcr applied undcr NIJ's FY-201 I Solving Cold Cases with DNA gran\.
Thus. citation to vcrbiage containcd in that doculllelll is completely irrelevant to thc issucs
discussed in the Draft Audit Report.

Second, despite its criticism. O IG iails to cxplain how it is humanly possible to determine thm
evidence has been processed and uploaded to COOlS wi{how firsl revielfil1K a case file (as did
O IO's auditors) which contains the lab reports Ihat facilitate that very determination. Aller our
unit discovered thm evidence in those four (4) cases had been processed and uploaded to CODIS.
no further work was performed. Until those four (4) cases had becn reviewcd. the fact of
previous lab analysis or uplO<ld WilS unknown- und unknowable.

V. REVIEW OF CASES BETWEE N 200(1-2011 UN n ER O UR FY-20 10 GRA NT AWA IW

On page seven (7) of its Draft Audit Repon. 010 slates:

       We also noted tlmt according 10 J'lckson COUIlly'S FY 2010 award applicution. its
       primary goal was to review l, 748 cold cases for crimes committed between 1972
       and 2005 that were known to have biological evidence amenable 10 DNA testing.
       According to the OJI' Fi n:mcial Guide. you must initiate a Granl Adjustment
       Notice (GAN) for changes in scope. duration. activities. or other significant areas.
       These changes include allerin~ programnwlic activitics or changing thc purpose
       of the project. Jackson County did nol file a OAN outlining thc changes in scope.
       Therefore, in addition to reviewing cases that wefC not eligible under NIJ"s
       progmm. Jackson County' s fCview of cases from 2006 through 2011 was also
       inconsistent with the prinmry goal stated in its application.

                                                  10




                                                 28

The entire premise upo n which this Ending was made is flawed and misleading. First. a rcvie\\
of the FY-2010 Solvi ng Cold Cases with DNA solititmion by NlJ reveals that there is no
reqlliremelll that applicants must specHy the onensc date rtlllges for cases thm will be reviewed.
Second, there is no prohibilion in the solicitation thut succcssful applicants nOI seek to idemij>'
additional cases for review during the course of the grant period. Quite to the contmry. under thl'
hcading. "A ward Purpost:s." on page threc (3) of th,~ solicitation. the document states. in part :

        The goal of this solicitation is to make funding available to Slates and units of
        local government to:

         I. ltIellfify , review and prioritize violent crimc cold ca<;cs that have the potential
        to he solvcd usi ng DNA analysis, .

        2. [(ientijy , collcct. retricve. and evaluate biological evidence from such cases
        that may reasonably be expected to contain DNA.

Thus. a major stated purpose of the FY-2010 Solving Cold Cases wi th DNA grant solieil3lion
was thm grantees should seek 10 "identify" "violent cold cases crimes that have potential to hi:
solved using DNA analysis:' That is exactly whm we di d during the course of the 2010 grant,
However. we are I/OII' being informed by OIG 111(1/ It'(' ~'hulild bc RlllctiUlled fur (JoinK ('.factI),
what tile Jo/kitaliun ;'/I'iled IIJ 10 do!

Third, the date ranges set forth in our 2010 application idemi!ied a category of cases that had
been tllen-idenlijied (at the time of the writing and submission of the application) as containing
evidence presumptively ame nable to DNA analysis, We /lew:r certified. promised, or anirmed in
the application that we would not seek to identify violent crime cold cases that went beyond
those identi fied at the time the application was submitted, Rat her, we went above and beyond
the call of the solicitation by ocing fully pr.:parcd (m the tim.: \\c submillcd our upplicution) \()
begin grant activitics with a s),stcmmic and organized accounting of thell-knOIl'1I cases \\ith high
potential for solvability, Ironically. our lmrd \\ork at hl:eoming prepared and organized for the
application process is now being IIJed axoil/sl liS by OIG's erroneous conversion of (Jur
application metrics into a restrictive and allegedly sclf~ilTlposed boundary for case revic\\
ac tivities, DIG does not. and cannot cite a single programmatic res tri.:tion in suppon of this
li nding,

A cursory reading of our FY-2010 grant application reveals that I\e fully infonncd NlJ thm lIe
would continue to seek to idemify additional violent crime "cold cases" beyond those known \0
us at the time of our appl ication. In our :Ipplieation abstfU.:t on page two (2). we stated. "The
purpose of this application is to seek to ell/u/llce am/ c(lI/r;,/JIe tlt e ol/goillg lIm[ n.~tell/(ftic
identifica fiun. review, investigation. and DNA analysis of existing evidcnce in unsolved I iolent
cold case crimes in Jackson County_ Missouri" (emphasis added), Similarly. on page fou r (4) of
the abstract we stated. " Th t! lIirill/lIte KOll/ of this project i,' 10 ill cre(fst! th e IIlImhl'r of d oil' llt
                                                                    \
coM C(fse offell ders 11'//0 (Ire idelltifiel/ throllgh DNA evidence and held accountable for their
\:Times:' (Emphasis added),

In the "Purpose and Statement of the Problem" portion of the application on pllgc Sl ,'\; (6). II\!
stated, "The purpose of this grunt application is to (!lIluIIIl'C ami COli/iII III' tile ,H',\'t('l1/mic
illferll;:ellcr i(I(!lIti/7cnl;,m, re view. and investigation of Ilio/e/ll colti cllse crimn' ill Jt/ chon
COUIlIY, Missollri cnpnble of beillg ~'()"'/!{/lI'it" ONA cl'idell CC, . , This number [1.748 J ill cfmfe,\'
all ""rrelltl" kllOWII yet un-reviewed cases with potential \0 be solved with DNA evid{~nce and
successfully prosecuted that were originally investigated hy KCI' D:' (Emphasis added),

                                                        11




                                                      29

Fourt h. we specifically stated on puge thirteen (13) of th(' applicution that                            "\\<.'   will strhl' to
irielllifl' (1m/ rel'ieli'   (III   I'iolellt colt/ euse crillles frolll fll e:;e /nlluller   (11111   lIlore rllr(ll IIgc/fdes
[those in eastern Jackson County] within our count y." (Emphasis added). It was clear from the
application that our thell-idelllijie(J (at the time the applicmion was submitted) cases between
1979 and 2005, totaling 1.748, were distinct from those cases that had been committed in eastem
Jackson Count y. but that had 1101 ),el heen idl:l1Iified.

Our position is further bolstered by the "Projee ted Time!inc of Cold Case Milestones" in our FY-
2010 applicat ion Appendix I, pages 24-26. which rderenee the taCt that " review cOlllilllles 1111
ells/em Juckson COII Il I)' I,jolelll crill/ e cult! cases." (Emph'lsis added). These cases wcre
specifically 1101 includcd in the catcgory of ca~es identi lied between 1979 and 2005 (in other
words, not the 1.748 cases then-identified). but were explidlly lI1ellliolletJ as a category of I iolent
crime "cold cases" that our 201 0 project would altempt to idenlifY.

Fifth. on page fourteen (14) of our application. I\C identified an additional class of cases scparatc
from those that had been Ihe,,-idenlijied between 1979-2005. We specifically stated we would
review these c<lses. The relevalll passage stales:

         Although Missouri law was amended in 2002 to elim inate the stalUte of
         limitations for forcible sexual crimes. the prosecution of non-sexual crimcs
         committed during the same cvent will be harred if not filed willi ill 3 rear." o ftll e
         dille (JUlie lI[(euu . To prevt:nt this from happening. each year our office reeeivcs
         a list of cases from the KCPD Crime Laboratory in which the statute is due to
         cxpire the following year. C(J1d Ca.,·e Allalr'"'-" eO/u/lief leg,,1 allll ("CfUlIl review
         o[ tll e.,·e CflW. allli flle 101m f)fl e charges wllell legal/r allli [flCffllll/l'
                          "
         appropriate.

(Emphasis <Idded).

A curwry revicw of this paragraph would have dearly advised those who rcviewed our
application that it was thc intent of our project. if funded. to review c<lses commillcd within tile"
last three (3) years of the dille of the award. The application specifically statcd that this review
was neccssary to toll the running of til(;' statu\!: of limitations in cases that had uCC/lrrt!d withill
'he /tu" ,hree (3) )"e(/r~·. Accordingly. our application Ilouid have provided a grant reI iCI\cr
clear notice that the intended time frame for this revicw II auld cuver cases commilled during til<.:
years 2010 (part of the year). 2009, 200K and 2007. Therefore. for this reason alone. D1G's
claim that our <Ipplieation statl"{] \Ie would not review cases commilled after 2005 is refuted by
thc plain language of the application itself.

On page scven (7) o f the Orall Audit Rcport. OIG also stutes:

         According to the OJP Financial Guide. you Illust initiate II grant adjustment notice
         (GAN) for changes for changes in scope. duration. activilics, or other significant
         areas. These changes includc altering progr'lnml<ltic activities or changing the
         purpose of the project. Jackson County did not fil e a GAN outlining the changes
         in scope. l lierefore. in add ition to rcviewing cases that were not eligible unde r
         NJj" s prugram. Juckson County's revicw of cases from 2006 through 2011 W<lS
         also inconsistent with the primary goul stated in its application.

The reader should be aware that despite at least two length y telephone cli&:ussions and an emuil
communication summ:HiLing OIG's findings. the Drali Audit Rc port is thcfirSllilll1: that lhc OIG

                                                               12




                                                              30

auditors involved ill this inquiry h<lH' ('l'a cited I) the (}JjJ Financial Gllide: and 2) the abscnee
of a GAN as justification for their finding on this point. To date, the OIG allegation that
unauthorized cases had been reviewed was based on I) thc progmmmati e defini tion of a "cold
case;" and 2) this gnmtcc's allegedly binding self-declaration of the limited nature of t'ase review
to be performed under our FY -2010 grant. which is f('futed abow.

Apparently, OIG now feels Ihat it needs 10 bolster thc basis for this finding. However. tilt'
premise upon which this argument is based f('mains fatally fl[lwed. This is because the "scope.
duration. activities:' etc. of our case review activi ties pedonned under the FY-20 I0 grant I/rl'f!r
ell/lI/ged, As is evidenced by the clear language of our FY-2010 application cited abo\'e. NIJ
was on filII notice Ihal we would continue to seck to identify fu rther cold cases for review during
the course of the gral1\. O IG fails to e.-.:plain why a GAN was required to advise NIJ of thaI
which it had already been speci fi cal ly adviscd in our application documents. Thcre was no
change in scope, dura tion. or activities beyond those palcl1Ily disclosed in our FY-2010
application. Accordingly. a GAN was /l ui ret/lliretl. OIG's allegation to the contrary is fac tually
baseless.

              VI. TIHCK I Nr. no u ns FOil. r.nANT-FUN UED F:M I'LOYEES

On page eight (8) of the Draft Audit Report. OIG states:

       We arc qucstioni ng all costs charged 10 the cooperative agreement. all of I\ hieh
       was for personnel costs. because a signi fi cllnt number of the cases reviewed by
       the award fund ed cmployecs wcre not eligible under thc program. Furt her.
       Jackson County officials stated that it did not have a fomlul system to track the
       number of hours award fundcd cmployees spent on each casc, which would allow
       us to detenninc thc pereenlage of lime award fundl-d employees SIX'nt on eligible
       cases.

(Drafi Audit Report. p. 8).

13y OIG 's own calculation. 66% of the cases revie\\ed under our FY-2010 grant award were
eommilled between 1979 and 2005 (the dispuli.'d time frame addressed above). Despi te lhm fact.
O IG has announced its intcnt 1 question {III draw downs that occurred be/ore l/!ld after October
                                0
30. 2013. a time frame \\hich completely ,'ncompass!;'s gr.ll1l- funded Ilork which- by O[G' s
own admission- was \'alit"y per/ol'lI/eli (under OIG 's disl)uted definit ion of a "cold case") h~
our office on nellrly 70"/0 u/tlle t:ase.~ we reviewed lind inl'esligllled! OIG's recommendation
based on that calculation is not only fundamentally unfair. it is completely illogical. In !;'ffect.
lOG concedes thaI under Its dispul!;'d il11erpr!;'talion of an eligible case. Ihe vast majority ot' the
work we perfomlCd WllS perminible undcr the temlS of the applicalion. but still wanls (Ill
funding back an)'way- in tottll! This rccornmendution is patcntl y unr!;'asonable.

The staled reason for this dmconi'ln conclusion is that Jackson County "docs nOI havc a formal
system to lrack the number of hours award fundcd employees spent on cuch case. which would
allow us to detcrmine the percentagc of time award funded employees spent on eligible cases."
(Draft Audit Report. p. 8). Ilowcver. O IG fails to infonn the retlder that the simplc reason for
thllt state of affairs-which the Drafi Audit Report never mentions- is that NIJ nevcr infomlcd
us-or any other cold case grantee fo r thaI mUlier- that \Ie weI'C required keep track of time
spent working on each illdil·;dua/ case. If \Ie had becn told to do tlmt. we would ha\'e done so.
Dcspite that fact. DIG once aga in wants to hold liS responsible for a non-existent progmillmalic
req ui rement. Nil has never required "cold casc" grantces to track ho urs sp!;'m working un

                                                  13




                                                31

individual cases. That non-ex istent grant requirement is Ihe sole reason tlmlthe only remedy Ihal
OIG can construct is to scck to rorcc us to complclely reimbursc DOJ for our FY-2010 grail!
runding. This findi ng simply lIdds insult 10 error (liS dt'scribcd in the points addressed abovc).

                 VII . 2012 GRANT "i<'l]N US TO UETI' ER IJS E" FINI)[ NG

On page eight (8) orthc Draf't Audit Rcport. OIG states:

       [Wle have concerns rcgarding thc usc ofCoopcrativc Agrccmcnt 2012-DN-BX­
       KO ) I funds totaling 541 5,829. nonc of which werc spent as of the conclusion of
       our audit. Thc FY 2012 award application expanded the easc timcrramc that
       would be subjcct to TCview. including 2.545 caS<.'s with evidence amend:lbk [sicl
       to DNA tcsting rrom years 1979 through 2010. Dcspitc thc fact that Jackson
       County included morc recent case years for TCview and invcstigation. thc concerns
       we have regarding the eligibility of the more reccnt cases still cxist. Jackson
       County's casc load. III lellsi ill p"rl. mirrors KanS:ls City's easc load because or
       the dual revie w process. Therefore. il i:; likely that the ineligible cases revicwed
       by Kansas City using FY 2011 award runds. Ilhieh was 95 percent of what was
       re viewed, arc ill Illrge IHlr' the samc cases that will be rcvicwed by Jackson
       County using its FY 2012 lIl\ard fu nds. Therdore. lIe idcntified thc entire awurd
       totaling $41 5.829 as funds to beller usc.

(Emphasis added).

With this slatemcnt. OIG substitutes rank speCUlation and sumlisc in placc of evidenec. Even
more startling, based upon Ihat speculation. OIG recommends Ihat $415.829.00 of currenll y in­
use grant funding (which employs jour (4) people) be designfltcd as "funds to beller USl· ...
Mort."Ovcr. OIG acknowledges thut its finding is bascd on its limited understanding of a case
review "process" rather than actual numbers and cvidcnce.

Pursuant to Chapter 7 or the GAO GOl'l!rIImelll Accollllling S/tll/daN/s: Implemf!/llatioll Tool
document. Field Work Standards for Perfonmmcc Audits. under the hCilding of Ovcrill!
Assessmcnt of Evidencc. Standard 7.70 b.. statcs:

       Evidence is not sufiieient or not appropriate whcn (I) using the evidence curries
       3n unacceptably high ri sk that it could lead to an incorrcct or improper
       conclusion. (2) thc evidence has significant lim ilations. given the audit objectives
       and intended usc or the evidence. or (3) thc cI·idence docs not provide an
       adequate basis for addressing the audit objectil'Cs or supporting the fin dings and
       conclusions. Auditors should not usc such evidence as sup port lor lindings and
       conclusions.

[t is probably fair 10 say lhat most reasonable people Ilouid find that rank speculation and
conjecture I) carry an unacceptably high risk or un incorrcl.:t or improper conc lusion: 2) ha~
signi licant limitations: and 3) docs nOi providc an :Idcqua te basis for nddrcssi ng audit objectile~
or supporting findings find conclusions. Nevcrthdcss. OIG hllppily ignores its own binding audit
standards while arriving at its prcdctcnnincd conclusioll.

Conspicuously. however. DIG rails to in rorm thc reader of thc b:.sis for ils conclusion lhal 95
percent of thc cases reviewed by the KanS:ls Ci ty I}olicc Department arc "ineligible:'
Presumably. this is bascd on the sallle erroneous reasoning by which OIG claims that 34% ufthe

                                                 14




                                                32

cases rev iewed by Jackson County during its FY-2010 grant were inel igible: l) OlG's post hoc
programmatic reconstruction of the ddi nition of a '·cold case''; and/or 2) the scope of KCPD's
case review went beyond those cases that had been identified in its application at the time or
submi ssion. As noted above, the premise upon which bot h of these posi tions rest is erroneous.

Most fundamentall y, however. OIG fai ls to mention that KCPD was awarded its FY-2011 grant
after having notifi ed ru in its application that it would be reviewing cases comm itted alter the
year 2000 (the year STR technology was available in th is jurisdiction): 2) that NJJ never notilicd
KCPD at any time-including after progress repon s had been subm itted and audits completed
thnt nearly all of the case review that it was engaged in was a lleged ly unauthorized .

In the final anruysis, NTrs conduct on this point speaks much loude r than O!G's words: NJJ did
not cons ider the cases in question that were reviewed by KCPD to be unauthorited grant-funded
work. Lf it had, KCPD's FY-20 11 grant applicatio n would have been denied; its progress repons
would have been rejected; and its program matic aud it reports would have rellected this concern.
None of these actions were ever taken.

              VIH. ALLEGIWLY " LATE" PROGRESS REPORT METRICS

OIG c laims that the submi ssion dates fo r the first three (3) progress repo rts under our FY-20 I 0
grant were " late." (Dra ti Audit Report. p. 10). OIG furthcr asserts that the first report under tht:
FY-2012 grant was •· tate ... (Draft Audi t Report. p. 10).

Jackson County has been the recipient of three (3) Solving Cold Cases wi th DNA grant awards
We began work on our FY -2008 award on J une I. 2009. This grant continued until November
30, 2010. However. d ue to an unspent trai ni ng budget. NIJ extended our FY-2008 gnmt unti l
May 31 . 20 II .

Our FY-2010 award began o n December I. 20 I 0. During the period between December I. :w 10.
and May 31, 201 1. we asked NlJ which of our two ongoi ng grants we s hould report mctrics
under. We were advised by the Co ld Case Program Manager in late February 20 I I. that \H'
should not report mctrics under both grants, si nce that would consti tute double count ing. Rather.
we were advised that we s hou ld conti nue to report metrics (that were then accruing during the
running of o ur FY-2010 grant) under our FY-2008 grant. We were never advised by Nl.J that
progress reports were d ue for our FY-2010 grant despite the comp lete absence or grant-relali.:d
acti vity under that award at that tim e. Relying on this advice. we continued to report incomi ng
metrics only ut1der our FY-2008 gra nt s ince it had not yet been closed.

At a much later point in time, NIJ contractor                   advised us that \\C had rcc.:ivcd
incorrect adv ice, and that the metrics previously reported under FY-2008 grant that hud accru..:d
after our FY-2010 gram had begun s hould instead be reported in our FY-20 10 progress reports.
We then comple ted a number of entirely new progress reports and submitted them under our FY­
2010 grant. TI1e incorrect advice received from NIJ is the sole reason tlmt our initial two (2)
progress repo rts under the FY-20 10 award were "late" as described in the Draft Audit Rcpott.

Regarding the FY-20 12 grant report. O IG is correct that the lateness o r the report \\US ba~ed on a
misunderstanding regarding reporting requirements. Due to the fact that there was no act ivity
under our FY -2012 gram beca use our FY-20 I 0 gram was ongoing, and all case metrics \\ere
being progress-repo rted under that grant. we were unaware that a progress report was necessary.
Once \VC were provided wi th correct informati on from NIJ. we immedia tt: ly rectilicd the
si tuation.

                                                 15




                                                33 

                   IX. THE .IUI,Y- UEC EM HER 20 11 REI'O IH INC, PEn lOI)

On page twelve (12) of the Dmft Audil Report. OIG states:

        We also noted that Jackson County reported 61 violent crinte cold cases with
        biological evidence that were subjected to DNA analysis in the July through
        December 2011 reporting period. According to Nlrs Guidelines/or Performance
        Mcasllre~' and Progn·.¥s Repor/s. award recipients should not include this mctrie if
        the award does not includc funding for DNA analysis, Therefore, this metric
        should have been reported as 'N/A' in th'lt period.

Further. in footnote 4 on page twelve ( 12) of the Draft Audit Report. OIG states:

        NIJ issued the Guidelines for )'erformanee Measures and Progress Reports to
        award recipients in December 2012. The guidance was lIvai111blc 10 lIWllru
        recipients prior to the July through December 2012 progress report period due
        date on January 30. 2013. In addition to using the guidance 10 complete the
        performance measures tabk: for that period and all periods moving forward. it is
        reasonable to concludc that award recipients could also usc the guidance 10 revise
        the metries that were included us part of previous rcporting periods, if nceessury.

[n lootnote fou T (4). the Draft Audit Report correctly notes that NIJ"s Gllidrlilll!S for
Per/ol'mance Measures alld Progress Repo/"ls wus issued to grantee!>-for the first time~in
December 2012. However. OIG incorrectly stutes that "lillie g uidI/lice            I.· . .·
                                                                                     "
                                                                             {/I'(lilllble ftJ (1U'lIrlf
recipielll.... prior ftJ the Jllly throl/gh Decemher 1012 progreS!i report period dll e (Ime 011
JfI1l1lf1ry 30, 2013. " (Emphasis added).


IfOIG had (/elll(llly proofread ils ()II'II draft report, it may have noticed that it had curlicr stutcd
(correctly) on page twelve (1 2) of the report th m the reporting period in question was Jul)­
December 2011, not 2012 as stated in footnote lour (4). Thcrefon.·. OIG's ussertions to thc
contrary notwithstanding. I!lIitl(IIICe 11'11.\' /1 01 (/I'llifflble 10 award recipients prior to the progress
report due d:lle on Jammry 30. 2013.

Further. O[G's asserts that "it is reasonable to conclude that <lwmd recipients could also use th('
guidance to revise metrics Ihal were included as part of previous reporting pt'riods, if n('e~'ssar~."
(Draft Audit Report. p. 12, n.4). Given the tenor of this audit. it is !I/Orl! likely that had JlI('kson
County revised lin)' previous progress report metrics in the absence of explicit authorit~
pemlilling such revisions. OIG would hu\'c claimed that this was u programmatic infraction as
well. More fundamentally. Nil lIerer adviscd Jackson Counly that it was required to reI ise past
metrics to conform to n guidance documcnt provided to grantees Ilell after those mctrics had
been reported. based on a doc ument that did not exist <It that time.

The guidance document cited ubovc W,IS issued to "cold cllse" grantees for the iirst lime on
December 10.201 2. Therefore. during the questioned time fTlllllC of July-December lOll. lIe
had received 110 gllidallce from NIJ that the number of cases subjected to DNA :Illalysis should
not be a reported metric undcr our grant aWlird. In fact. Ihis was II reporting cat('gory included in
the GMS computer system that ealled for a IIh!lric. Furthermorc. there was //fJ indication in
GMS Ihal this reporting category should not be completed for gmntees who limited their grulll­
funded work to casc revicw and investigation. Finall y. we Ilel'cr rcceivcd tilly or.d or l\rill..::n
direction from NIJ unt il aftcr the Jul y-Dcccmocr reporting period that this metric cUlegory
~hould not be completed.


                                                     16




                                                    34

We also take issue with OIG's cornmunic<ltions thm ehuracterized the reponed metric orsi.'\t)'.
onc (61) cases as "inaccurate." The number is <lc(uratc. We were told after this metric I\as
provided that reporting under this category was nOI necessary. If we had direction and guidance
on this topic earlier. we could have saved ourselws :md the KCPD Crime Luboralory u
subslanliul umOUIll of time and effort gathering Ihis infomlUtion. Based on a lack of guidance
from N IJ. we provided 100 much inlOnnalion. ralher than providing "in,teCurale" infonnution.
Once we were lold by NlJ thut il was nOi necessary to report this information. lIe slOpped
providing it. To hold this finding ag:tinst our program. abscnt :lny guidance from NIJ to Ihe
cOlllmry-espccially in lighl oflhe fm.:ll hal il appean."<Ilo be lImwuklfory reporling categor) on
the GMS website-is fundamentally unfair.

              X. ALLEGED IHJPI ,ICATION OF PERFORMA NO: METR ICS

On page twelve (12) orllle Draft Audil Report. DIG st;llcS:

       We identified another fonn of duplicalion. which was the result of Jackson
       County' s and Kansas City's dual review process. We fou nd that both Kan!ills City
       and Jackson County were counling cases rcviewed by both agencies as part of
       their perfonnanee melrics. According 10 NIl's Guidelines fa/" Pel!UI"mWIC('
       Measures anll Progress Reporls. case ~hould only be counted as rcviewed once.
       even if they arc reviewed multiple times under an award or across multiple
       awards. This m ellll.\· rlllll ill orller If) lll'(}id (!tmble·collil lillg. oilly Olll! agell!}
       sholiid report 0 C(ISI! rel'iell'e(1 fl!>' par( of its perfomtallce m etrics, regardles.\· of
       tile case being rel'iewell by both agendel·. In IOtal. we found that as of the end of
       July 2013 both agcneics rel}()rted 4&5 of the samc cases as being reviewed, 444 of
       which were reported by Kansas Cit) first. This /IIeO ll.l" IIUlt Jackson County
       should not have reported 444 cases, as they had <llready been counted as
       reviewed.

(Emphasis added).

As was thc case wilh its reconstruction of the programmatic definition of a "cold easc." DIG
once again goes beyond Ihe plain wording of Ihe guidance documenl it cites as authority for its
conclusion. It docs so in search of an inlerprct:ttion Ihal meets its predetermined needs. This is
evidcnced by the fact th:lI 0 1 substitutes its own lavored verbiage (highlighted above) for the
                                  G
lie/uti/wording set fUr/II ill file Nil dO(;lIIlIelll. To shoehom Jackson County and KCI' D's dual
review process inlo the prohibited category of double·counting. DIG asserts. " Thj~' /lie/III}' thai in
order to avoid double·eounting, only one agency should report :l casc reviewed as p<lrt of its
pcrfonnance metrics. regardless of the case being reviewed by bOlh agencies." (Emphasis
added). A review of the guidance documcn!. of course, reveals that it says nothing of Ihe sor!.

The plain I!mguuge ort he guidance doeu!lwnt f"ils to support DIG's finding. Although "douhle
eoullting" is never defined, cerluin examples are provided: coullting cases more Ihan once
"under one award "nd under multiple awards if Ihe {/~el1cy lIdminil'll:rl' {his program under
multiple fiscal years": counting a case "(wicc wililin the sallie award' or ·'re.reviewing the samc
easc": and "the grtlllfee" cOlmlin}.; (I euse {",ice "under two or more different awards." (See pagc
3 of guidance document) (emphasis added).

Moreover. Ola's finding is further flawed lor a number of reasons. First. this office has lIel"e/"
received (111)' indication from N IJ Ih"l it considered illler-agellcy "dual review" of cases bl:lu'eel1
different grall/ee.~· to conslilute impcnnissibJc '-double counting" of grant metrics. To the

                                                     17




                                                   35

contrary. thc dual case review procedure pmcticcd by our office and KCPI) was specifically and
unequivocally described in detail in our FY-2008. FY -201 O. and FY -2012 grant applications (.I't'I'
20 10 grant application p. 13 , pp. 22-23. and grant application allachment. 'The Kansas City
Model of Cold Case Rcview"- including the cold case review protocol chart) (see alS() 2012
grant application p. 8. pp. 16-17. and "The Kansas City Model of Cold Case Rcvicw"- incJuding
the cold case review protocol chart. Appendix IV. p. 7). After extensive study and consideration
of each application. NIJ awarded our oniee grant funding in each of the noted liscal yeufS.
Furthermore. it is our belief thut each KCPD Solving Cold Cases wi th DNA grant application
also provided a detailed description of our inter-agency case reviell' procedure. Again. there I\as
never any indication from NIJ at that this practice constituted prohibited "doublc counting" as
alleged by GIG.

Second. this document was jir~'1 prul'irle(f to all "cold case" grantees on December 10.201 2.
along with the new scmi-annual progress report template. At a conference call held between NIJ
and "eold case" grantees on December 18. 2012. the guidance document and the nell' progress
rcporttcmplate were expfuim!(f jor rfl ejir.w lime. Thcrc was 110 indication from NIJ during that
call that intcr-grarllce rcview of "cold cases" consti tuted double cOllnting of metrics.

Finally, at no time (I/Ier Decembcr 2012, did NIJ cI'er inform our office that the "dtml review"
procedure outlined in our three (3) successful gT<lrlt applications was prohibited. There were
many opportunities to have done so. Between December 2012 and the present. we submitted a
number of semi-annual grant progress reports. specifically stating the number of cases n:vio;-w{'d
and investig<lted during the relevant time frames. All reports were approvcd. and we received no
indication from NIJ that our method of calculating metrics was against any policies outlincd in
the guidance document.

Moreover, NIJ conducted a comprehensive audit of our FY-2010 Solving Cold Cases with DNA
program during the week of July 22. 2013. Solving Cold Cases with DNA grant Manager.
iiliiiiiii~~:, informed us that the programmatic aspect or our audit would be conducted based
upon our FY· 2010 grant application- which contained an explicit description of our dual rc vicI\
proccdure. The ex it interview for that audit was conductcd on July 26, 2013. AI 110 lillie. either
during or at the conclusion of that audit. W:IS our method for calculati ng metrics ever questioned.
The issue was never even mised by Nil

Furthermore. from a programmatic standpuint. OIG 's conclusion that our dOl'umented case
rcvicw procedures constitute "double counting" of metrics makes no scnsc in light of Nlr s
strong emphasis in the FY-2010 solici tation document that applicants seck "collaborution \\ith
appropriatc members of the cri minal justice community:' such as "law enforcement:' (See FY-
20 10 solicitation document, p. 9; sec lIlso p. 10. requiring "Lellers of cooperation/support or
administrative agreements from organizations cof/ahol"(fling in Ihe projed': p. 12.
Project/Program Design and Implementation criteria. "Soundness of methodology and analytic
and technical approach. including dl'lIIollsJrtl/('(1 /etllll lIpproach /0 so/l,ing cold casel'. " )
(Emphusis added). These statenlt'llts don't mcrely suggest interagency collaboration: they make
it very clear that such collaboration is un important componcnt of a slIccrnflll applicaliun.

We never double countcd mctrics in (IllY fashion described in Ihe guidance document. All ofthl'
examples provided direct a Single grall/ee to not "double count'" t.1ses within or across multiplc
grants (ldlllillislel"l'd hI' 111m gramer. There is no prohibition in the guidance document against
counting cases that have been prcviously reviewed by a differell/ So/l,ing Cold Casn lI"il17 DNA
grall/ee.


                                                 18




                                                36

This is not a difficult concept to articulate. If Nil had intended to prohibit "double-counting"
betweell scpamte grantees. it could have certainly have made a clear and unambiguous st,lIcment
to that effect in the guidance document. The fact that NlJ provided 110 slich example in thc
document is clear cvidence Ihal dual inter-granlee easc review was I/Ot, and is no/. a prohibited
practice.

 In conclusion. our 2008, 20 10. and 2012 grant applications fu lly. completely. Hnd explicitl)
disclosed Ihe f:tci Ihal OUf metrics would Ix' based upon ill/eragency dllal case rel"iell". The
solicitations issued for the stated fiseal years failed to definc-or even memion- the concept of
"double counting:' Furthermore. the December 2012 guiduncc document failed to prohibil- or
even address-whether or nol casc review metrics could be "double counted" he/ween gral/l
lIwardees. The only examples provided in the guidance docu menl address double eouming for
(/11 individual grantee. whelher during a si ngle award or for consccutive awards to th(l/ grante(".



We were never, at any timc. provided verbal or writlcn notice that our method of counting
metries was contrary to programmatic dircetives. In fact. this modcl was promoted by NIJ. as
evidenced by the fact that I\"e were awarded IlIre(' eOIlSI'CllliI'l' grams based on this model of cas~
review (see 2010 grant application pp. 13. 22-23. and grant :Ipplication atlachmenl. ··The Kansas
City l\'lodel of Cold Case Review") (see (llso 2012 grant application p. R. pp. 16-17. (lnd "The
Kansas City Model of Cold Case Revk'w" Appendix [v. p. 7). At no time was this explieitl~ ­
disc lo~ed practice ever questioned by NlJ. Thus. we had absolutely 110 norice of a programlll:nic
infraction. Accordingly. the imposition of sanctions on our program for this fully disclosed and
long-standing practice would be fimdo/JIelllally w!fllir.

A document published by NIJ in 2002. titl ed U~'iIlK DNA to Solve Cold C(jSI:~·.) also supports our
position that inter-grantce case revicw was nOI inlcnded to be considered as --double counting" of
metrics by Nil In pertinent p::lrt. thc report slates:

           The nature and scope of these issues Iconsiderations m(ldc before DNA testing is
           attempted] require thaI all)' flPfJfOaL"i1 to rce:ctllllillillC oM C(lses' Jor po/ell/iol
           DNA el,iflellce be colloborfllh·e. \\hether by lin individual investiglltor or by a
           specialized unil developed specifically for cold case rcvicw. LOCfl1 pro.~cclI/on·
           call provide I'fllmlble illsi;,:hl ;1110 legal is'~'lIe~' Ihalmighl prel'l!/l( (If Itell! "Jmllr("
           proseclItion.

(Page 13) (emphasis added).

           At all .fltlge.~ or lite IIf(JceS. . illwsligmors shollld (ll'llil thellU"e/l'e~' oJ tlt e
                                             f
           scielllijic (If/l'ice oJ tlt e luboffllory IIml lite [egul expertise oJ tlte l(JclI!
           fJfo.~eclI/or's oJfice . .. Similarly. prosecutors tim help identify issues that might
       occur al trial if a suspect is identified and ::Irresled upon successful DNA testing.
       Good communication between police. labormories, and prosecutors can help
       identify and convict ~erio us offenders and save valuable time and resources.
(Page 17) (emphasis added).

           Cases S'!101l1ti be prelimillflril)' r("I'icl.wl by ;III'C5ti;':lltor.\· ill conjullctioll lI'illt lit e
           proseCUlor'S office to identify which prosecutions would be harred by the slntules
           of limitation.


l   National Instilulc of Justice. Using DNA /0 So,,"e Cold Cos/'s   Juty 2002.

                                                             19




                                                            37

(Page 17) (emphasis added).

        [ Clomillilatioll Iby policel wiTh (/ prosecutor i!i I·ery ill/porlfllli to tlel ermilll!
        which el'iriellce will bl! prohlllil'l! 10'"I!
                                                   t·ast! . Building the new investigation on
        cooperative e no rts between the laboratory and prosecutor can save valuable
        resources. develop le:tds. and identify previously overlooked cvidcnce that may
        yield a DNA profile.

(Page 20) (emphasis added).

From the section of the 2002 re port tilled. ··Sample Checklist"":

        I II COIISlillaliOIl with the I"horfltory lIlIIl prosl!clltor.~. suhmit appropriate
        (prob..1tive) evidence to the laboratory for testing.

(Page 23) (emphasis added).

Based on these published statements by NIJ. it is inconceivable that it considered inter-grantce
case review to be prohibitcd double counting of cascs. This is because dual rcview by police and
prosecutors is prominently set forth in a report titled. ··Using DNA to Solve Cold Cases'· (j~. 01/
.NfJ best practice guideline! This fact is further conlinlled by thc fact that both Jackson County
and KC PD specifically fllh-iSC(1 NlJ of our dual case rcview process. N I1 II'I/S lI'ell (I II 'lIre tlull
h/JIII Ollr ojJke lilli/ K CI'D wl!re redell';lIg l/Illl ('Olllltillg idellficlIl Cfues liS SelJll rflte work
IJer/ormel/mu/er .{eplIr(lfc grlllll.{.

     XI. ALLEGE U OVE I{ST AT EMENT 0 1" T !-I E NUM BE ll OF CASES REV I EWED

On p..1ge thirteen (13) of the Draf1 Audit Report. OIG states:

        Finally, we fou nd that Jackson County·s progress reports overstated the number
        of cases reviewed. based on our detenl1inatiotl that 3-1- percent of cas...s were
        ineligible. as outlincd in thc Expcnditure section of this report. For the progress
        report ending on June 30. 2013 . Jackson County repo rted a total of \.242 cases
        reviewed with biological evidence for th ... lif... orth.: award. According to Jackson
        County's datab..1se as o f July 2013. there were 1.280 cases reviewed. all of which
        contained biological evidence. From those cases. we removed any cases listed in
        Jackson County's databnsc morc thnn oncc. We thcn dc termined the number of
        eligible cases not previously counted by Kans:ls City. We found the actual
        number of el igible cases reviewed as of Ju ly 2013 to be 751, all of which
        contai ned biological evidencc. AI the time of our fieldwork. Jackson County's
        award was still in progress: therefore. we were unable to identify the tOial number
        of cligible cases reviewed under the award. HO\~ever. it clear lsic jthat the actual
        number of eligible cases revicwcd unde r the program is less th3n wh3t was
        reported.

With little ammunition at its disposal. OIG conti nues to lin: the same spent rounds. secmingJ~ in
an elTort to add additional pages 1 its Dmf1 Audit Report. The abovc finding is Silllpl~ a
                                      0
rehashed version of OIG's fu ndamentally flawed IJOSI hoc reconstruction of the programmatic
definition of a "cold case:' and its claim that Jal:kson County failed to request 3 GAN to advise
NIJ of that which it was already well aware. As noted above. we categoricully reject the
pre mises upon which these findings 3re based. The number of eligible cases as reported b)

                                                     20




                                                    38

Jackson County in each our progress rcpons to NIJ was correct. Thcse rcports wcre acccptcd by
NIJ after 1) it had been explicitly informed in wriling on llluitiple occasions by this gr.mtee of
the time frames which our case rev iew encompassed: and 2) after it had been explicitly infonm:d
in writing of the date tha t STR DNA technology had become avai l:tble in our jurisdiction. This
is clear evidence that NIJ dill/wi consider these cases to be "ineligible" for review as is now
being claimed by OIG.

                    XII. REQ UEST FOR A FI NA L PROGRESS ImpORT

On page thirteen (13) of the Dl.1ft Audit Report. O IG states:

       A final progress report was submitted in November 2013. The report includes the
       same infomlation as the report ending on J une 30. 2013. plus 123 additional cases
       in the July through September 2013 reporting period. It is possible that Jackson
       County counted add itional duplicalc cases between the end of July 2013 and the
       end of the award. September 30. 2013. It is :llso li kely that a number of the cases
       reviewed between the end of July 2013 and September 30, 2013 were not eligible
       under the program. We recommend that the OJP obtain a final progress report.
       which includes the corrected perfonn:mee data baSl.-'d on eligible cases under the
       program.

O IG's recommendation is based upon tl1l,: same erroneous premises addressed above: that
Jackson County should have somehow known that NlJ allegedly considered illle r-grantee rcviel',
of the same cases to be a programmatic infract ion. despite the fac t thai the document uscd to
support this claim I) was nol published or provided to "cold case" gmntees until at least two (2)
years after our FY-2010 grant had begun: 2) completely fai ls to describe or prohibit thc
questioned inter-grantee Cilse re\·iew liS "double counting": and 3) NlJ never once indicllted Ih~t
our inter-agency case review l11!;!thods violated programmatic dictates. despite the fact that w.:
havc been subjected to two (2) NIJ audits (under our FY-2008 and our I'Y-20 10 granls) and have
subm illed three (3) grant applications. as \\cJl liS countless progrcss reports that slX-"Citicall)
described this procedure in detail.

O IG's recommendation is also based on its fundame ntl!lly unfair posl hoc and retroactive
reconstruction of the programma tic defini tion of a "cold case."        [n order to meet its
predetermined needs. O IG constructs a completely new progmmmatic definition ofa "cold cas..:."
adding substantial new verbiage which nowhere appears in the original programmatic definition.

Uased on OIG's substantively new reconstruction of both "double counting" and the definition of
a "cold case," we believe that the problem lies with O IG's finding. not wi th Jackson County's
conduct. The refore. we rcjl'Ctthe basis upon which OIG's rl"Commends that OJP obtain u fimll
progress repo rt from hekson County. We have Hlready fully, completely. Hlld aceuratd)
reported o ur FY-20 I 0 gmnt metrics. consistent with doc umented program directil ~.~.
communications provided. and our interaction \\ith NlJ over the course of our FY-2010 grant
cyc1c--and indeed. o\'er the last six (6) years.

           XIII. Ole ' s ALLEGATION T Jl AT ,jAC KSON COUNTY FAlu:n TO
                         ACIII EVf: ITS I'ROG I(Ai\'IMATI C GOALS

On pages thirteen (l3) and fourteen (14) of its Dmfi Audit Report. OIG e ngages in an assessment
of whether Jackson County has met its stated programmatic goals for the FY-2010 gnml.
Regarding our first goal. to review 300 case files per reporting period. or 900 files o\'er Ihe life of

                                                 21




                                                39

the award, OIG refuses to advise the reader of our actual grant metrics; choosing instead to yc t
again repeat its erroneous conclusion that 34% of the cases reviewed under the grant program
were not eligible for review. Nex t. OIG, continuing to speculate in lieu of actuall y gat heri ng
evidence, states, " [IJn Ollr opinion, the fact that 34 percent of the cases reviewed were ineligible
likely represents that a significClm portion of Jackson County's efforts and resources were not
related to the goal oJ the program." (Emphasis added). Thi s conclusion is based upon an
erroneous premise, is uninformed, and constitutes speculation and conjecture.

For the reader's information, during the FV -20 I 0 grant cycle, our unit reviewed 1,365 vio len t
and unsolved crim es that met the programmatic definition of a "cold case" set forth in the
solicitation document. W e a lso filed cha rges in thirty-four (34) sepa ra te p reviously unso lved
violent cold case c rim es tha t affected thirty-six (36) victims.

Regarding our goals for the FY-2010 grant. OIG statcs:

       Jackson County's second goal was to follow and improve upon the 'Cold
       Hit/Cold Case Inter-agency Guidelines and the 'Cold Case Investi gat ion
       Guidelines.' The third goal was to wo rk wi th Kansas City to improve a cold case
       investigative checklist. The fourth goal was to meet bi-monthly with Kansas City
       and the Kansas City Crime Laboratory to discuss COOlS hits, ongoing
       investigations, and case prioritizat ion. The fifth goa l was to maintain and update
       all databases that record wo rk completed by the cold case un it. We did 110 / see
       au y illlliclIlioll th at Jackson CO llntv was 1101 m eetiug th ese goals.

(Draft Audit Report, p. 14) (emphasis added).

Immediately after finding   11 0   indication that Jackson County was not meeting its programmatic
goals. OIG asserts:

       Based on the information outlined above, we detemlined that the goals of the
       program were limited by Jackson County's review of ineligible cases. Therefore.
       ill ollr jut/gmellt Jacksoll Co unt" (/ill not achieve th e program goals and
       overstatell its program accomplishments .

(Draft Audit Report, p. 14) (emphasis added).

Thi s statement not onl y contradicts the one noted immed iatel y above, it demeans the Illany
victims for whom j ustice was fin all y achieved thanks to the countless hours o f hard "ork
performed by our staff. As noted above. we reviewed at least 1,365 cases and fil ed chargcs
against thirty-fo ur (34) violent offenders who victimized a total of thirty -six (36) women. We
are confident that these fi gures meet or exceed the work performed by any other N il Solving
Cold Cases wit h DNA grantee over the course o f a single grant cycle in thc history of the
program. We also invite the O IG auditors who made this statement to personall y inform each o f
the thirty-six (36) victims who found justice under thi s grant that Jackson County did not achieve
its program goals and overstated its acco mplishments.

                  XI V. H IE Q UESTION OF FUN DAMEN T A L FA IRNESS

The core problem with each of the disputed findings and conclusions noted above is that the}
violate ve ry fundamental notions of fairness. The findin g regarding duplication of performance
metrics was based on a documcnt ("'Guidelines for Performance Measures and Progress

                                                   22




                                                  40

Reports'") that was issued by NIJ sel'/!/1 (7) m O   llllls after our 2012 gr..tnt application- which
explicitly described our process for calculating grant metrics- had bcr:n submillcd to Nil
Furthemlore, GlIIO lilll!! after I) submission of the applic:.tion: 2) the issuance of the guidelines:
and 3) the award of the 20 12 grant. wNe we el'CI' advised by NIJ- nor was KCI'D for that
maller- that our method for ca lculating mctrics was in violation of those guidelines,
Fllrthermore. tllis (Iocllmem di(1 IWI el'ell exi.~/lIlIIil allea~·t 1"'0 (2) )'ear~' after ollr Fl'-2010
gra llt award //(/(I begl/II !

Likewise. the finding of inaccumte pcrfommnce metrics was based upon a figure included in a
semi-annual progress report that was submitted (I lillf \,('or bdore the guidance document \\a~
ever provided to us, or any other "cold C:'Si:" grantec.

The finding of "unallowable costs" is baseless. There is no provision in NIJ's FY-2010
solicitation (or any other prognllllmlltic documcnt) tim required applicants 10 pre-certify a fixed
set of cases that will be reviewed by applicants under a grant aW<lrd. In fact. a major goof set
forth in the solicitation W<lS for successfu l applicants to idelllifY "cold cases:' Furthcrmore.
nowhere in our applic<ltion did wc a%cn th<lt we would not scek out cases be)ond those that had
been identificd for review atthc time document W<lS submitted. To the contrary, our application
explicitly stated that we wOllld do this! Thus. OIG has absolutely no basis to describe 33% orthe
cases we re viewed under our FY-20 10 award as transgressing some allcged self-imposed
boundary of case identification and review set forth in our application doculllent.

Finally, OIG's rclormulation of the programmatic dcfinition of a "cold C<lSC" in no \\a~
resembles the one sct forth four (4) years ugo in the FY-2010 Solving Cold Cases with DNA
solicitation document. OIG now wishes-after thc fac t- to rewrite the dclinition. inserting the
subst<llltivcly new criteria that DNA tlochnology rnustl/()/ have ex isted at the time a gram-eligible
crime was committed- niteriu which nowhere ol'pear in the plain wording of the original
definition. Furthermore. it is OIG' s desire to make this revised dcfinition TCtroacti\·d)
applicablt:. This, ironically, in spite of the fuct that thc OIG auditors who made this finding
fhemsel\'es nccded funhcr clarification of its meaning from NlJ!

Additionally, the ne:w definition of a "cold casc"- if it stands-is hopelessly vaguc, completel y
unworkable, and begs a host of additional questions notcd above.

We belicve that OIG's reliance upon a guidance doculllent that was publishcd and provided \0 us
after the grant-related conduct in question had concludcd: which docs not by its plllent tenns
prohibit our dual review mcthod of cu1culating metrics; and the use of 01 substanti vely nc\\
reconstruction of the programmatic definition of a "cold case," n ms afoul of the ClIO
C01'I!rl1llle1l1 ACCOlinlillg SlmuJards: ImfJlemf!IIIWioll Tool. PUTSlilmt to Chapter 7 of th;1I
documcnt, Field Work Standards for Performance Audits, under the heading of Overall
Assessment of Evidence, Standard 7,70 b.• states:

        Evidcnce is not sunicient or not appropriat(' when (I) using the evidence curries
        an unacceptably high risk that it could lead to an incorrect or improper
        conclusion, (2) the evidence has significant limitations. givcn the audit objectives
        and intended usc of the evidence, or (3) the cvidence docs not provide an
        adequate basis for addressi ng the audit objectives or supporting thc findings and
        conclusions. Auditors should not usc such evidence as support for findings and
        conclusions.



                                                   23




                                                  41

We also believe that the usc of the guidance document and the reconstructed de fi nition of a "cold
case" as standards as evidence agai nst whieh 10 judge our programmatic conduc t carries a high
risk of an imprope r conclusion. We also belicve thm those items of evidence have significant
limitations, to wit: they we re publislh:dJrcconstrucledJrcimcrpreted (lfter our 2010 application
had been submitted, and we nel'er had any indication from NIJ aftcr our awa rd Ih3\ Qllr
interpretation of those standards was incorrect.

Finally, we bel ieve Ihat reliance upon th is evidence docs not provide an adeq uatc basis for audit
objectives or for supponing the findi ngs and conclusions of the audit because we had no lilir
notice of lheir applicability, Nil never indiclllcd in any way thaI our conduct was not consistent
with program matic directives. Therclore, O IG, by ils 011'1/ allditing StWuillrds, should nol ulilize
Ihis evidcncc to suppon its findings and conclusions.

However, based upon the fundamentally flawcd and unfair lo undalional findings noted above,
OIG's recommendation is Ihat our 2012 grunt award be designatcd as "funds 10 bellcr usc," As
noted, this recom mendation is contrary 10 the most basic notions of notice, due process, and fair
deali ng. If it actually comes to fru ilion, the credibility and trust placed by stale and local
forens ic science grantees in the Departmenl of Justice will be forever lost.

At a very basic level. rewriting and/or reinterpreting the rutes after the game has been played and
then claiming Ihm Ihose rules have be('n violated, Slrikes all reasonable people as an abuse of
power. The prohibition oflhis type of conduct is explicitly wriHen into our national constitution
as well as the constitutions of cvery statc in Ihc Union.

We strongly believe Ihal all of our interactions with NIJ have been forthright. open, and honest in
every way. Wc have fo llowed all programmatic direc tions and guidelines provided by NU, and
have never failed to execute a programmatic directive. In add ition, from a perfonn3ncc
pcrspccti\'c, we have been one of Ihe, if nOl the mosl successful grantee in the history of Nlr s
Solving Cold Cases with DNA program.

We strongly believe thut we should not be required to rem it (jill' fundi ng from the 2010 grant.
Further, we believe that our 20 12 award should remai n unaltered, IfOIG or NIJ want to change
\hc rules, Ihen change them. But do it from this point fOT\\ ard. Don'\ change the rules "fier thc
game has becn played, and then claim Ihal these newly created/constructed/intcrpreted rules
weren' t followed \Ihe n, in fUCI, it was impossible 10 have done so due to their nonexislence,
inapplicabili ty, vagueness, or ambigui ty.

Mo!'1 fllluJfl lllclllaJJy, wc relied ill gOOf/ failh 011 N IJ 's COIlf/IICI alld C      Olll1II1WicfliioilS I"illl 1I,~'
()I'er Ihc Jal'l si.t: (6) YCllrs,   Thill cOllffllCl flllli cmlllllllllicfllimi IICI'cr OIlCC illdiclilcr/ 111111
Jflcksoll Co/lilly Wfl,~ ill rioll1lioll ()f flily prog rtlllllllfll ic dcfillilifJIll" or dircclh'cl', 11,il', rifler
N IJ flUfl beell e.\"IJ/icilfy   (lilt!   repcatcfli), (ub'iscd ill IO'ritilll.! of Illc lIatllre Oliff ,~'COJle of fIllr
ollgoillg projet.'l,

We respectfully disagree with each oflhe three (3) Recommendations set fonh on page ii Bccn
(\5) of OIG's DraB Audil Repon. We also strongly believe thaI \ ) we incurred no "Questioned
CostS" under our FY-2010 award because (If! cases reviewed were eligible pursu:lI1t to published
programmutic guidelines and definilions: and 2) that our FY-2012 award should I10f be
designated as " Funds to Beller Usc" because all cases tha t have been reviewed and arc subject to
future review under that award arc eligible based upon those same published guidelines and
defi nitions.


                                                             24




                                                            42

Respectfull y.




t:~ \L lLJ-
Chief Tria l Attorney
DNA Cold Case Project Manage r
Jackson County Prosecutor's Offi ce
Kansas Cit y, Missouri




           25




          43

                                                                                          APPENDIX IV

     OFFICE OF JUSTICE PROGRAMS RESPONSE


                                                   U.S. Department of Justice

                                                   Office ojJustice Programs

                                                  Office ojAudil. Assessment, Qnd Management


     fEB - 5   101~


MEMORANDUM TO:                David M. Shccren
                              Regional Audit Manager
                              Denver Regional Audit Office
                              Office oflhe Inspector General


FROM:                        %~~~
                              Acting Director

SUBJECT:                      Response to the Draft Audit Report, AI/drl oj/he Office ojJus/ice
                              i'rograms, NationallnSlilute ojJustice. Solving Cold Cases with
                              DNA Cooperalive Agreements Awarded /0 lhe Jackson COl/nty,
                              MiSSQuri l'rQsecutor 's Office

This memorandum is in rdercncc to your correspondence, dated January 7, 2014, transm itting
the above-referenced draft audit report for the Jac kson County, Missouri Prosecutor's Office
(Jackson County). We consider the subject report resolved and request wrillen acceptan<:e of this
action from your office.

loe draft report contains three recommendations, S504,524 in questioned costs, and S415,829 in
funds to better use. The following is the Office of Justice Programs' (OJP) analysis of the draft
audit report recommendations. For ease of review. the recommendations are restated in bold and
are followed by our response.

1.      We recomme nd th at OJP remedy $504,524 in unallowable qu cstiollf:d costs
        .~50cia tf:d with the review of indigible cases.


        OIP agrees with the recommendation. We will coordinate with Jackson County \0
        remedy the $504,524 in unallowable questioned costs associated wi tb the rev iew of
        ineligible cases.

2.      We recommend tbal OJP remedy S415,829 in rund! to better usc associatf:d with th e
        review of ineligible eases.

        OIP agrees with the recommendation. We will coordinate with Jackson County 10
        remedy the $415,829 in funds to better use associated with the review of ineligible cases.




                                                44

3.     We recommend thai OJP obtJoin a final progr-ess report thai includes the corrected
       pcrforntllnce metria b:ued on eligible ~ses unde r the program.

       OJP agrees with the recommendation. We will coordinate wi th Jackson County to obtain
       a final progress report, which reflects corrected perfonnance metrics based on eligible
       cases under the Solving Cold Cases with DNA program.

We appnx:ialc the opportunity to review and comment on the draft audit report. If you have any
questions or require additional infonnalion, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Gregory Ridgeway
       Acting Director
       Nati0ll31 lnstitutc of Justice

       Portia Graham
       Office Director, Office of Operalions
       National lnstitutc o f Justice

       Charlene Hunter
       Program Analyst
       National lnstitutc of Justice

       Charles Heurich
       Physical Scientist
       Nalional lnstitute o f Justice

       Richard P. Theis
       Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division

       OJP Executive Secretariat
       CanlrOl Number 11"20 140 108152206




                                                 2




                                               45

                                                                     APPENDIX V

     OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

   SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT


       The Office of the Inspector General (OIG) provided a draft of this audit report
to the Jackson County, Missouri Prosecutor’s Office (Jackson County) and the Office
of Justice Programs (OJP). Jackson County’s response is included as Appendix III
and OJP’s response is included as Appendix IV of this final report. The following
provides the OIG analysis of the responses and a summary of actions necessary to
close the report.

Analysis of OJP’s Response

      In response to our draft audit report, OJP agreed with our recommendations
and discussed the actions it will implement in response to our findings.

Analysis of Jackson County’s Response

       In its response, Jackson County did not agree with our specific
recommendations and raised several concerns about our audit report that did not
pertain to those recommendations. We address Jackson County’s disagreement
with our recommendations and many of its additional statements in the paragraphs
below before discussing OJP’s specific responses to each of our recommendations
and the actions necessary to close those recommendations.

Initial Observations and Clarifications

        In its response to the draft audit report, Jackson County makes numerous
criticisms of the audit report that we believe to be unfounded, including that the
OIG failed to adhere to government auditing standards. As stated throughout our
report and in this appendix, our findings are based on the program solicitation, as
well as the OJP Financial Guide and Jackson County’s own award documentation.
We believe that this information, in addition to the other evidence gathered
throughout the audit, provides a reasonable basis for our findings and
recommendations, which are entirely consistent with government auditing
standards.

       We also wish to note our strong disagreement with Jackson County’s
assessment of our conclusion that Jackson County did not achieve the program
goals. According to Jackson County’s response, our conclusion “demeans the many
victims for whom justice was finally achieved” under the program. Our audit and
its conclusion do not assess, and are not intended to assess, the importance of
these cases or their significance to the victims. We appreciate the importance of
solving criminal cases, whether they are in Jackson County or elsewhere in the
United States. However, federal funding for this program is limited, and many
jurisdictions in the United States compete for those funds. Indeed, a majority of


                                          46

the state and local jurisdictions that apply for funds do not receive any. Those that
do receive funding are required to abide by the program requirements set by NIJ.
As stated in this report, we found that a significant number of cases reviewed by
Jackson County were ineligible under this particular federal program. However, the
fact that these cases were ineligible for review under this program in no way
suggests that the OIG believes justice was not due for these victims or that these
cases should not have been investigated as vigorously as possible, including by
conducting prompt tests of all relevant biological evidence prior to inactivating the
case.

       We further note that, contrary to certain statements contained in Jackson
County’s response, expenditures may be identified as questioned costs in instances
other than when they fail to comply with legal, regulatory, or contractual
requirements—specifically, expenditures may be so identified when they are not
supported by adequate documentation at the time of the audit, or are unnecessary
or unreasonable. Additionally, and as stated in our report, questioned costs may be
remedied by offset, waiver, recovery of funds, or the provision of supporting
documentation. OJP is responsible for remedying the questioned costs identified in
this report, and has indicated in its response that it will work with Jackson County
to address this issue.

Specific Concerns Raised by Jackson County’s Response

        Several of the specific arguments that Jackson County makes in its response
merit discussion. In the following paragraphs, we address those arguments and
reaffirm our conclusion that Jackson County used its award funding to review a
significant number of cases that were not eligible under the program.

        In Section II of its response, Jackson County criticizes the OIG for creating its
own definition of a cold case. Among its criticisms, Jackson County asserts that the
OIG’s understanding of a cold case is inconsistent with and more stringent than the
definition in the NIJ solicitation; unworkable because it illogically limits the number
and kind of cases that may be considered cold under the award; and unfair
because, if the OIG’s understanding were accepted as correct, the NIJ’s definition of
a cold case in the solicitation did not give applicants fair notice regarding the
parameters of the program. In Jackson County’s view, for purposes of the NIJ’s
definition in its solicitation – “any unsolved UCR Part 1 violent crime case for which
all significant investigative leads have been exhausted” – the existence of untested
biological evidence should not be considered an unexhausted significant
investigative lead, even if the means for testing that evidence were available prior
to inactivating the case.

       We disagree with Jackson County’s narrow reading of the definition of a cold
case under this program. The cited definition from the NIJ solicitation cannot be
read in isolation; rather, it must be viewed in the context of the FYs 2010 and 2012
program solicitations as a whole. Those solicitations provide context for the
purpose of the Solving Cold Cases with DNA program and the definition of cold
cases eligible under the program. A full reading of those documents makes clear


                                           47

that award funding was not meant to cover cases with biological evidence that was
obtained during a time when the DNA technology was available but a decision was
made by the agency to inactivate the case without processing the biological
evidence. In other words, the program is meant to fund cases where limits in DNA
technology at the time the crime was committed prevented the investigation from
moving forward, not cases where DNA testing of biological evidence could have
been conducted but was not.

       Moreover, Jackson County’s view is inconsistent with any reasonable
understanding of what it means for a case to be “cold.” If suitable DNA technology
was available at the time the crime was committed and biological evidence was
collected, the biological evidence represents a significant investigative lead. If the
biological evidence was not analyzed using that DNA technology before the case
was inactivated, all investigative leads were not exhausted and the case does not
reasonably qualify under this program. Nothing about the NIJ’s definition of cold
cases is inconsistent with this common sense understanding of a cold case.

        Jackson County’s hypothetical example of a 1987 cold case with biological
evidence illustrates the point. Due to the state of forensic sciences in that era, it is
fair to assume that the active investigation of such a case might not have included
any DNA analysis. Thus, such a case could be eligible for NIJ’s program, even if the
case could have been reopened and DNA tested prior to the NIJ award. In contrast,
Jackson County’s hypothetical 2009 case, which could have been tested using STR
technology but, at the election of the investigative agency, was not, would not be
eligible under the program. This is because a significant investigative lead (the
biological evidence of the case) was not exhausted, despite the availability of
suitable DNA technology, during the active investigation. Nothing about these
examples is absurd or unworkable; on the contrary, this understanding of the scope
and purpose of NIJ’s award program is consistent with the NIJ’s definition of a cold
case and represents the most reasonable interpretation of all relevant information.
As stated in the report, the Solving Cold Cases with DNA program is not meant to
fund the testing of unprocessed biological evidence that could have been processed
during the active investigation.

       Jackson County also states in Section II of its response that the OIG
discussed the meaning of the program’s definition of a cold case with NIJ officials
after completing our fieldwork. According to Jackson County, these OIG discussions
with NIJ are evidence that that the programmatic definition of a cold case set forth
in NIJ’s 2010 and 2012 solicitation was vague. We disagree with this statement.
We first discussed the definition of a cold case with NIJ officials well before our visit
to Jackson County. During these earlier discussions, NIJ officials confirmed our
understanding of how a cold case is defined under the program. The purpose of our
later discussion with NIJ officials, which occurred after we concluded our fieldwork
at Jackson County, was primarily to notify them about the results of our audit and
to discuss any concerns NIJ may have had about those results. We did not conduct
that later discussion with NIJ because we believed the NIJ’s solicitations to be
vague, but rather because we wanted to obtain NIJ’s view on our findings. Notably,




                                           48

during that discussion, NIJ again reconfirmed that our understanding of the
definition of a cold case under this program was correct.

       Jackson County’s response also argues that NIJ, in awarding the award funds
to Jackson County, must have known that Jackson County would use the funds to
review cases with biological evidence that could have been analyzed prior to
inactivating the case. Thus, by implication, Jackson County argues that NIJ
approved of its expenditures even if the OIG’s definition of cold case is accepted as
correct. In support of its assertion, Jackson County points out that its FY 2010 and
FY 2012 applications identified cases that post-dated 2000, which the applications
disclosed as the date that STR technology was available in the jurisdiction.
However, Jackson County’s response focuses on only one technological
advancement, while the purpose of the program is to take advantage of all of the
advancements in DNA technology, including the CODIS Convicted Offender
database, that were not available at the time the crime was committed. Moreover,
Jackson County significantly deviated from the cases it planned to review in its
grant application. The timeframe for reviewing cold cases from 1972 through 2005
was clearly outlined in Jackson County’s 2010 award application. However,
34 percent of cases reviewed by Jackson County occurred after 2005 and Jackson
County failed to file a grant adjustment notice (GAN) notifying NIJ that it planned to
change to scope of its award. Therefore, NIJ was not on notice that Jackson County
intended to use award funding to review more recent cases for which suitable DNA
technology was available at the time the crime was committed.

        Section III of Jackson County’s response elaborates on the assertion that it
provided NIJ “clear and unambiguous notice” regarding the way it defined a cold
case, including its intention to fund cases that post-dated the availability of STR
technology in Jackson County, and its intention to fund cases dated later than
2005. As stated previously, we disagree that based on Jackson County’s
application NIJ was on notice that it planned to use award funding to review
ineligible cases. Jackson County significantly deviated from the purpose stated in
its application. Jackson County’s FY 2010 application stated that the goal of the
funding is to review cases from 1972 through 2005, yet 34 percent of the cases
reviewed by Jackson County occurred after 2005. The application does briefly
mention that it will review cases where the expiration of the statute of limitations is
imminent for non-sexual crimes committed during a forcible sexual crime event.
However, according to the supporting documentation, there were fewer than 30 of
these cases as of the date of our review, and Jackson County informed us that the
cases were not included as part of the count of the number of cases reviewed under
the program. While the narratives included with the progress reports provide
details regarding three crimes committed after 2005, Jackson County also reports
almost 1,400 cases as reviewed under the program without detailing when the
crimes were committed, making it difficult to determine how many of those cases
were dated after 2005. The FY 2012 application expanded the timeframe to include
cases through 2010; our concerns related to this action are outlined on page 8 of
this report. Moreover, Jackson County failed to file a GAN, which would have been
the appropriate mechanism to notify NIJ that it planned to change to scope of work
performed under its award. As a consequence, we do not agree that either the


                                          49

FY 2010 application or the subsequent progress reports provided the “clear and
unambiguous notice” regarding Jackson County’s use of program funds that
Jackson County asserts. 7

       Section V of Jackson County’s response highlights Jackson County’s
disagreement with our finding that its review of cases from 2006 through 2011 was
inconsistent with the primary goals as stated in its application. Jackson County
asserts that, while it referenced cases dated between 1979 and 2005 in its FY 2010
application, it never specified a timeframe from which all funded cases would be
identified. Jackson County also asserts that its application provided indications that
it would fund cases outside of that timeframe, including cases for which a 3-year
statute of limitations had not yet run, and adequately disclosed that its case
identification process was ongoing. Jackson County therefore asserts that its scope
did not change after its application, and therefore it did not need to initiate the
required GAN.

        We disagree. Jackson County’s application explicitly and repeatedly stated
that the purpose of the FY 2010 funding was to review the 1,748 cases from the
1972 through 2005 timeframe that had yet to be reviewed by the cold case
unit. For example, the first page of the applications states, “The goal of this
enhanced funding request is to facilitate the expedited and complete review of the
remaining large number of unsolved violent crime cold cases with evidence in
Jackson County, Missouri (1,748 cases) before [previously-awarded] grant funding
is no longer available.” 8 The application also stated that reviewing the 1,748 cases
from this time frame represented a significant workload, requiring additional county
resources, including an additional hire. However, a significant amount of its
award-funded efforts involved the review of ineligible cases that were not identified
in its application. In light of these explicit statements, the small number of cases
involving a 3-year statute of limitations, which were not included in the cases
reported as being reviewed using award funding, and the other language to which
Jackson County refers in its response were not sufficiently clear to put NIJ on notice
that it intended to fund such a significant number of cases that post-dated 2005,
which was the cutoff for the count of eligible cases it had identified at the time of its
application.

      In Section VI of its response, Jackson County states that the OIG’s decision
to question all funds drawn down under the FY 2010 award, despite the audit
determining that 66 percent of the cases reviewed under the program were eligible,

        7
          We intend to discuss the matter of the NIJ enhanced programmatic desk review (EPDR) to
which Jackson County’s response repeatedly refers in a separate, forthcoming audit report assessing
related oversight activities by OJP and NIJ.
        8
           Similarly, in the first paragraph of the “Purpose, Goals, and Objectives” section of its
FY 2010 application, Jackson County stated, “We are requesting enhanced funding to employ an
additional Cold Case Analyst in an attempt to complete our review, testing, and investigation of the
enormous number of remaining Jackson County cases (1,748) that have been identified to contain
evidence amenable to DNA testing. This number includes all currently known yet un-reviewed cases
with potential to be solved with DNA evidence and successfully prosecuted that were originally
investigated by KCPD.”


                                                 50

is fundamentally unfair and illogical. To clarify, we did not find that 66 percent of
the cases that Jackson County reviewed using award funding were eligible under
the program. Rather, we found that at least 34 percent of the cases the OIG
reviewed were ineligible for such funding because they post-dated 2005. Our audit
did not review every case, and we note that some of the pre-2005 cases not
reviewed during our audit may also have been ineligible. Further, we questioned
the entire FY 2010 award because our finding that at least 34 percent of the cases
we reviewed were ineligible evidenced a material departure from the purpose of the
program, which we believe justifies questioning the entire award.

       In Section VII of its response, Jackson County disagrees with our concerns
regarding the use of FY 2012 award funding, asserting that we relied on insufficient
evidence and a limited understanding of a case review process. Jackson County
further asserts that the OIG did not inform the reader of the basis of its conclusion
that 95 percent of the cases reviewed by its partner, the Kansas City Police
Department (Kansas City), were ineligible, a conclusion that Jackson County
believes to be erroneous.

        Jackson County is incorrect in stating that our finding is based on inadequate
evidence. As stated in this report, Kansas City and Jackson County received
separate Solving Cold Cases with DNA awards to conduct “dual reviews” of
unsolved sex crimes cases. According to Jackson County officials, Kansas City was
responsible for determining which cases qualified as cold cases. However, based on
a separate audit of the Kansas City FY 2011 award, we found that 95 percent of the
cases reviewed by Kansas City under the program were not eligible. 9 Jackson
County’s case load nearly mirrors Kansas City’s case load because of the dual
review process. In addition, Jackson County’s FY 2012 award application made it
clear that the funding would be used to continue its close partnership with Kansas
City, including interagency reviews of cases. The fact that a large majority of
Kansas City’s most recent award was used for ineligible cases leads us to
reasonably conclude that Jackson County intends to use future funding for similar
purposes.

       In Section IX of its response, Jackson County asserts that we made certain
factual errors regarding the date certain supplemental NIJ guidance pertaining to
performance metrics became available. We did not. Footnote 4 of this report
correctly states that the information included as part of the report due in January
2013 could have included updates to previous reports, if necessary. This would
have included the July through December 2011 reporting period. We note that we
made no specific recommendation related to this issue.

      Section X of Jackson County’s response takes issue with our conclusion that
Jackson County overstated the number of cases reviewed by reporting duplicate
cases previously reported by Kansas City. The response includes the concerns


        9
          U.S. Department of Justice Office of the Inspector General, Audit of the National Institute of
Justice Cooperative Agreement Award Under the Solving Cold Cases with DNA Program to the Kansas
City, Missouri Board of Police Commissioners, Audit Report GR-60-14-007 (March 2014).


                                                  51

outlined and addressed on pages 12 and 13 of this report. NIJ’s Guidelines for
Performance Measures and Progress Reports state that the data collection plan for
projects that fund activities for more than one agency must include an explanation
of how tracking and reporting methods will avoid the possibility of double counting
cases affected by federal funds. In our judgment, the purpose of the guidelines is
to achieve an accurate presentation of case metrics, which includes preventing
inflated statistics resulting from cases being counted more than once by one or
multiple agencies. Jackson County is responsible for adhering to these NIJ
Guidelines, yet the progress reports submitted by Jackson County did not contain
the detailed case information for all cases reported as reviewed that would be
necessary for NIJ to identify the duplicate cases reviewed by Jackson County and
Kansas City.

       Section XI of Jackson County’s response, which also takes issue with our
finding that its progress reports overstated the number of cases reviewed, focuses
on NIJ’s acceptance of the progress reports as evidence that NIJ considered the
cases included therein to be eligible under the award. However, NIJ’s acceptance of
a progress report is not an acknowledgement by NIJ that it is in agreement with the
activity outlined in the progress report. Rather, NIJ’s acceptance acknowledges
receipt of a report. Moreover, because progress reports provide only summary
data, it would have been difficult for NIJ to identify the issues we encountered
during the course of our audit using the data contained in these reports.

        Section XII of Jackson County’s response maintains that NIJ should not seek
to obtain a final progress report that includes the corrected performance metrics
based on eligible cases under the program. Section XIII asserts that, contrary to
the OIG’s conclusions, Jackson County achieved its programmatic goals under the
award. Section XIV asserts that the OIG’s conclusions violated notions of
fundamental fairness. Because we do not agree with Jackson County’s assertions
as to the eligibility of the cases it reviewed and the propriety and accuracy of the
statistics reported in its progress reports to date, and for the reasons provided
above and in our report, we do not agree with these positions, and we encourage
Jackson County to work quickly and cooperatively with NIJ in addressing the
recommendations contained in this report.

Summary of Actions Necessary to Close the Report

   1. Remedy the $504,524 in unallowable questioned costs associated
      with the review of ineligible cases.

      Resolved. OJP agreed with our recommendation to remedy the $504,524 in
      unallowable questioned costs associated with the review of ineligible cases.
      In its response, OJP stated that it will coordinate with Jackson County to
      remedy the questioned costs.




                                         52

  This recommendation can be closed when we receive documentation

  demonstrating that OJP has remedied the $504,524 in unallowable

  questioned costs.


2. Remedy the $415,829 in funds to better use associated with the
  review of ineligible cases.

  Resolved. OJP agreed with our recommendation to remedy the $415,829 in
  funds to better use associated with the review of ineligible cases. In its
  response, OJP stated that it will coordinate with Jackson County to remedy
  the funds to better use.

  This recommendation can be closed when we receive documentation
  demonstrating that OJP has remedied the $415,829 in funds to better use.

3. Obtain a final progress report that includes the corrected
  performance metrics based on eligible cases under the program.

  Resolved. OJP agreed with our recommendation to obtain a final progress
  report that includes the corrected performance metrics based on eligible
  cases under the program. In its response, OJP stated that it will coordinate
  with Jackson County to obtain a corrected final progress report.

  This recommendation can be closed when we receive documentation
  demonstrating that OJP obtained a final progress report that includes the
  corrected performance metrics based on eligible cases.




                                    53

